<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]




 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                        THURSDAY, MARCH 12, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:34 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Shelley Moore Capito (chairman) 
presiding.
    Present: Senators Capito and Schatz.

                              U.S. SENATE

                        Office of the Secretary

STATEMENT OF HON. JULIE E. ADAMS, SECRETARY OF THE 
            SENATE
ACCOMPANIED BY:
        MARY SUIT JONES, ASSISTANT SECRETARY
        ILEANA GARCIA, FINANCIAL CLERK

           OPENING STATEMENT OF SENATOR SHELLEY MOORE CAPITO

    Senator Capito. The subcommittee will come to order.
    And I would like to welcome everyone to the second of our 
fiscal year 2016 budget hearings for the various agencies under 
the jurisdiction of the Legislative Branch Subcommittee of the 
Appropriations Committee.
    We have before us today the Secretary of the Senate, Julie 
E. Adams. We have the Senate Sergeant at Arms, Frank Larkin, 
and we have the Chief of the U.S. Capitol Police, Kim Dine. 
Welcome to all of you.
    I would like to start by welcoming, first of all, Julie 
Adams and Frank Larkin, into their new positions in the Senate, 
as they were just sworn in when we were sworn in--when I was 
sworn in on January 6 of this year. And I hope you are settling 
into your critical roles that you play with this historic 
institution. I look forward to any initial assessments of your 
office that you may be able to share with only 8 weeks on the 
job.
    And, of course, the subcommittee welcomes back the Chief 
who, after a little over 2 years on the job, now has the most 
seniority on the table.
    Thank you for being here with us today for this important 
discussion on how the agencies you represent are planning to 
move forward in the next fiscal year.
    I would also like to thank you for hosting the ranking 
member and I both over at your headquarters, Chief, with the 
Sergeant at Arms and then the Secretary of the Senate Office to 
really see where you work, how you work, and meet a lot of the 
folks that you work with. So I appreciate that. That is very 
useful.
    The Secretary of the Senate's office is requesting a total 
of $34 million, which is $3 million, or 9 percent, above the 
fiscal year 2015 enacted level. Of the total requested, $25 
million is for salaries and benefits, which would maintain 
current services at a full-time equivalent (FTE) of 225. The 
request for the expenses is increased by $2.5 million above the 
enacted level due to the modernization of the financial 
management information system.
    The Sergeant at Arms total request is $206 million, an 
increase of approximately $8 million, or 4 percent, above the 
fiscal year 2015 enacted level. The request includes $72 
million for salaries and benefits, which would maintain the 
current FTE of 892. The request for the expenses account is an 
increase of $5.7 million over the enacted level of 2015. The 
requested increases and offsets within the Sergeant at Arms 
budget support the need for a major information technology 
refresh of hardware and software and increased storage capacity 
for members and committees and a constituent mail system 
upgrade. There is a consistent theme here and it is called IT.
    Finally, the Capitol Police request totals $379 million, an 
increase of $31 million, or 9 percent, above the fiscal year 
2015 enacted level. Of the funding requested, $307 million is 
for salaries and benefits to maintain the current sworn officer 
level of 1,775 and the current civilian staff of 370. The 
request for the expense account is an increase of $10 million 
above the 2015 level. This increase would restore full annual 
funding to previous functions and existing needs that have been 
put off in recent years due to significant budget constraints 
such as lifecycle replacement of information technology 
systems, equipment, and training.
    I noticed a theme in all three of your budgets, which is 
holding personnel flat and prioritizing funding increases for 
the IT systems and equipment. I look forward to exploring these 
needs with you and the other members of the subcommittee today 
and over the next several months as we move through the fiscal 
year 2016 process.
    So I would like to turn this over to my ranking member, 
Senator Schatz, for any opening remarks he would like to make.

                   STATEMENT OF SENATOR BRIAN SCHATZ

    Senator Schatz. Thank you, Chair Capito.
    And thank you, all of you, for being here for this hearing. 
And I want to thank you, and I think it is fair to speak for 
all members to thank all of you personally for making this 
institution run so well. You are all institutionalists. You 
keep us safe. You keep the place running. You make the Senate 
the Senate, and we are all very, very appreciative of the work 
that you do even as we conduct our oversight responsibilities.
    It has already been a pleasure working with Chair Capito as 
her ranking member, and I am looking forward to this 
conversation.
    Your three agencies work closely to make sure that the 
Senate can operate safely, openly, and efficiently. They play a 
critical role in assuring the continued operation of an open 
and democratic Congress. The funding we provide to the Capitol 
Police, the Sergeant at Arms, and the Secretary of the Senate 
makes sure that the American people have safe and reliable 
access to our buildings, our proceedings, and our records.
    I look forward to examining your budgets closely today and 
working with you throughout the year as we conduct ongoing 
oversight. I would like to discuss how we can combat evolving 
threats to our open Capitol campus, like drones that could be 
used by criminals or terrorists and cyber attacks. I am also 
interested to learn how the agencies testifying today may have 
to adapt if the current Budget Control Act spending caps remain 
in place.
    Thanks very much.
    Senator Capito. Thank you.
    And now I would like to ask the witnesses, beginning with 
Secretary Adams, to give a brief opening statement of 
approximately 5 minutes. As you all know, the written testimony 
of each witness will be printed in full in the hearing record. 
Secretary Adams.

                SUMMARY STATEMENT OF HON. JULIE E. ADAMS

    Ms. Adams. Thank you, Chairman Capito and Senator Schatz, 
for the opportunity to testify on behalf of the Office of the 
Secretary and its dedicated employees.
    I ask that my full statement, which includes our department 
summaries, be submitted for the record.
    Senator Capito. Without objection.
    Ms. Adams. Thank you.
    With me today are Mary Suit Jones, the Assistant Secretary, 
and Ileana Garcia, the Financial Clerk, who have worked closely 
with your subcommittee over the years. I am also joined by many 
of our department heads.
    Before turning to my formal remarks, I want to take a 
moment to thank my predecessor, Nancy Erickson, Assistant 
Secretary Sheila Dwyer, and other members of the executive team 
for their assistance during my transition. Their graciousness 
is a testament to the strength and traditions of the Office of 
the Secretary.
    Since taking the oath of office 2 months ago, I have had 
the distinct privilege of meeting the staff that comprise the 
26 departments of the Secretary's Office. It is a truly 
remarkable group of people and one with whom I am honored to be 
associated. Their institutional knowledge, devotion to public 
service, and expertise serve the Senate well, and they provide 
remarkable continuity in times of change.
    In the last year, some department heads retired from the 
Secretary's Office after dedicating nearly 130 years of 
combined service to the Senate. Among them, Chris Doby, the 
Financial Clerk, and Kathie Alvarez, the Legislative Clerk. The 
Senate is a better place because of their many contributions. I 
am proud that our departments continue to be led by seasoned 
professionals who also have lengthy Senate service.
    I would also like to note our strong and continuing 
partnership with the Senate Sergeant at Arms. From continuity 
programs to procurement, I am proud of our friendly and 
collaborative working relationship.
    Our budget request for fiscal year 2016 is $31,327,000. The 
request includes $25,077,000 in salary costs and $6,250,000 for 
the operating budget of the Office of the Secretary. The salary 
budget represents an increase of $305,000 over the fiscal year 
2015 budget as a result of the costs associated with the 
potential cost-of-living adjustment. The operating budget of 
the Office of the Secretary remains flat at $6.25 million, of 
which $4.35 million is firewalled for the administration of the 
Senate Information Services program. That was assumed by this 
office in 2011 and has not changed.
    In addition, I am requesting $2.5 million in no-year funds 
to begin the modernization of the Senate Disbursing Office's 
Financial Management Information System, also known as FMIS. 
This is a 6-year phased project that will require additional 
no-year funding requests. To promote transparency, I am 
requesting that this funding be firewalled.
    FMIS is a collection of financial applications used by 
Senate offices to submit and pay bills, manage office funds, 
and report to both internal and external agencies. It is used 
by approximately 140 Senate offices and has over 4,000 users. 
The current FMIS, implemented over 15 years ago in preparation 
for Y2K, utilizes a complex architecture, increasingly 
expensive mainframe technologies, and a variety of software 
that may only be enhanced through costly and time-consuming 
custom development. The first phase of the project will focus 
on budget and reporting modernization. The majority of changes 
will happen behind the scenes as improvements are made to the 
FMIS infrastructure.
    One piece of the budget modernization that Senate offices 
will see is an improved module to perform payroll projections, 
enabling offices to better forecast and plan their budgets. 
This is something that I, as a former Senate administrative 
director, would have greatly benefited from. So I hope office 
managers will find it useful.
    Throughout the process, user input will be important to 
ensure that the modernized system fully meets the needs of the 
Senate community, and I have stressed the importance of this to 
my team. While the modernization project is underway, the 
current FMIS platform will be maintained and operational.
    FMIS is significant, but just one component of the office's 
vast mission. Since 1789, the Office of the Secretary has 
provided support to the Senate in three areas: legislative, 
administrative, and financial. I would like to highlight some 
of our staff's accomplishments in each area.
    In December of last year, the Parliamentarian and the 
Office of Web Technology debuted the electronic Senate 
precedents database on Webster. The system currently contains 
approximately 275 precedents from seven of the most frequently 
used chapters of ``Riddick's Senate Procedure.'' This will 
continue to be a big task as the parliamentarians make updates 
and additions for the database.
    The Senate Stationery Room continued working with Member 
offices to establish accounts for the online flag ordering 
system, using pay.gov. This is a convenient service that 
Members can provide to their constituents interested in 
purchasing American flags. Forty-three offices were using 
pay.gov at the end of 2014, up from 13 offices a year ago, and 
usage is expected to expand even further this year.
    The Disbursing Office continues to move offices away from a 
paper voucher submittal process to one where imaging and 
electronic signatures are utilized. Forty-four offices were 
using the technology at the end of last year, and more offices, 
including new Member offices, will be included moving forward. 
Implementation of the new technology has also led to a decrease 
in the volume of paper and the time it takes for vouchers to be 
approved.
    The Historical Office commemorated the 50th anniversary of 
the passage of the Civil Rights Act of 1964. Senate historians 
developed an extensive multi-media exhibit on Senate.gov, 
authored articles describing the Senate's role in the passage 
of the landmark legislation, and presented specialized talks 
and tours. The four public talks drew capacity crowds and the 
final two discussions were broadcast by C-SPAN.
    And finally, before the start of every new Congress, the 
Secretary's Office is responsible for reviewing certificates of 
election for compliance with Senate rules, and planning and 
implementing an orientation for newly elected Members and their 
designated staff. Last year's orientation lasted 3 days, and 
Senators-elect and their spouses became familiar with the 
Senate procedure and history, participated in question and 
answer sessions with current Members, and were provided ethics 
and security briefings.
    I am honored to serve in this position, and I look forward 
to working with you and your staff in the coming year. I 
appreciate your support for the Office of the Secretary and 
welcome any questions you may have. Thank you.
    [The statement follows:]
               Prepared Statement of Hon. Julie E. Adams

                             BUDGET REQUEST

    I would first like to thank the subcommittee for their ongoing 
support of the Office of the Secretary of the Senate's budget and 
mandated systems. I am requesting a fiscal year 2016 budget of 
$31,327,000. The request includes $25,077,000 in salary costs and 
$6,250,000 for the operating budget of the Office of the Secretary. The 
salary budget represents an increase of $305,000 over the fiscal year 
2015 budget as a result of the costs associated with a cost of living 
adjustment. The operating budget of the Office of the Secretary remains 
flat at $6,250,000, of which $4,350,000 is for the administration of 
the Senate Information Services Program (SIS) that was assumed by this 
office in 2011 and has not changed.

                                 OFFICE OF THE SECRETARY APPORTIONMENT SCHEDULE
----------------------------------------------------------------------------------------------------------------
                                                                      Amount          Budget
                                                                     available       estimates
                              Items                                 fiscal year     fiscal year     Difference
                                                                       2015            2016
----------------------------------------------------------------------------------------------------------------
Departmental operating budget:
    Executive office............................................        $500,000        $500,000  ..............
    Administrative services.....................................       1,251,600       1,251,600  ..............
    Senate Information Service (SIS)............................       4,350,000       4,350,000  ..............
    Legislative services........................................         148,400         148,400  ..............
                                                                 -----------------------------------------------
      Total operating budget....................................       6,250,000       6,250,000  ..............
----------------------------------------------------------------------------------------------------------------

    In addition, I am requesting $2.5 million in no year funds for the 
modernization of one of the critical Senate systems, the Financial 
Management Information System (FMIS). This is a 6-year phased project 
that will require additional no year funding requests.

                                                 PROJECT REQUEST
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year
                              Item                                     2015            2016         Difference
----------------------------------------------------------------------------------------------------------------
FMIS Modernization Project......................................  ..............      $2,500,000      $2,500,000
----------------------------------------------------------------------------------------------------------------

  financial management information system (fmis) modernization project
    The Financial Management Information System (FMIS) is used by 
approximately 140 Senate offices and has over 4,000 active users. FMIS 
is a collection of financial applications used by Senate offices to 
submit and pay bills, manage office funds, and report to both internal 
offices and external agencies. The current FMIS, implemented over 15 
years ago, utilizes a complex architecture, increasingly expensive 
mainframe technologies, and a variety of software that may only be 
enhanced through costly and time consuming custom development.
    During 2014, the Disbursing Office updated FMIS applications to the 
extent possible. However, these efforts are quickly being outpaced by 
newer versions of operating systems, browsers and other end user 
software, which are not compatible with current FMIS applications. The 
Disbursing Office has planned an FMIS Modernization Project that will:
  --Improve financial system supportability and flexibility;
  --Address business requirements not met by the existing system; and
  --Continue to bring the Senate closer to realizing its vision of an 
        integrated, auditable, paperless financial system.

    The first phase of the FMIS modernization, scheduled to begin in 
fiscal year 2016, includes two major steps:
  --Budget Modernization.--This step will replace multiple budget 
        applications and manual processes with a single Senate-wide 
        modern budget application used by many Federal agencies. Also, 
        it includes the replacement of one of the existing payroll 
        modules, which is used to perform payroll projections and which 
        is expected to retire in April 2018.
  --Reporting Modernization.--This step will streamline and transition 
        financial reports to a consolidated data warehouse to include 
        minimizing end user impacts during the FMIS modernization.
    The FMIS modernization project is a major endeavor for the Office 
of the Secretary of the Senate. For fiscal year 2016, a total of $2.5 
million in no year funding is requested to initiate the first two steps 
in the FMIS modernization project. The flexibility provided by no year 
funding is important to the success of the modernization project due to 
its complexity, and the unique Senate technical environment and 
business requirements. In addition, no year funding provides greater 
flexibility for contracting options. Further, unobligated funds can be 
utilized to offset any further funding requests. To promote 
transparency in the FMIS Project, the requested funding will be fire-
walled from the office's operating budget.
    The Disbursing Office's business case outlines the full scope of 
the FMIS Modernization Project. The major phases and timeline of the 
proposed modernization effort are outlined in the table that follows:

------------------------------------------------------------------------
                                                 Modernization Approach
            Date               Business Area         and Rationale
------------------------------------------------------------------------
Fiscal year 2016-2017.......  Budget.........  Replace multiple existing
                                                budget applications and
                                                manual processes with a
                                                commercial software
                                                package widely used by
                                                Federal Agencies to:
                                                  --Allow for more
                                                efficient and effective
                                                budget planning and
                                                budget execution
                                                tracking;
                                                  --Enable what-if
                                                budget analyses at the
                                                Senate and individual
                                                office levels; and
                                                  --Facilitate direct
                                                integration between the
                                                payroll and financial
                                                system.
Fiscal year 2016-2021.......  Reporting......  Streamline and modernize
                                                the reporting
                                                infrastructure to
                                                prepare for and minimize
                                                impacts of the financial
                                                system modernization,
                                                and:
                                                  --Reduce the volume of
                                                reporting data;
                                                  --Eliminate unused and
                                                redundant reports;
                                                  --Consolidate
                                                numerous, disparate
                                                report processes;
                                                  --Ensure the
                                                consistency and accuracy
                                                of historic data; and
                                                  --Provide greater
                                                flexibility for users to
                                                customize the data they
                                                view and receive.
Fiscal year 2017-2018.......  Accounting.....  Replace the mainframe-
                                                based general ledger
                                                system with a commercial
                                                software package, which
                                                will:
                                                  --Allow the Senate to
                                                retire the expensive and
                                                increasingly difficult
                                                to support mainframe
                                                hardware and software;
                                                  --Implement a modern
                                                general ledger which is
                                                consistent with all
                                                current Federal
                                                financial standards and
                                                reporting requirements;
                                                and
                                                  --Enhance the Senate's
                                                ability to maintain the
                                                core component of the
                                                financial system and the
                                                source of the statutory
                                                semi-annual Report of
                                                the Secretary of the
                                                Senate.
Fiscal year 2018-2019.......  Procurement to   Replace the highly
                               Payment.         customized procurement
                                                to payment applications
                                                with commercial
                                                software, where
                                                possible, subject to a
                                                thorough alternatives
                                                analysis. This will
                                                allow the Senate to:
                                                  --Continue to meet
                                                unique Senate business
                                                needs while also
                                                addressing a number of
                                                business requirements
                                                not currently met by the
                                                existing applications;
                                                  --Enhance the Senate's
                                                ability to administer
                                                and support financial
                                                system applications;
                                                  --Enable more rapid
                                                deployment of user-
                                                requested changes; and
                                                  --Facilitate tighter
                                                integration of all
                                                procurement to payment
                                                applications to enhance
                                                Senate financial
                                                statement production.
Fiscal year 2019............  Data Sharing...  Automate interfaces with
                                                outside Agencies, such
                                                as the U.S. Treasury,
                                                to:
                                                  --Reduce errors in
                                                Senate reporting; and
                                                  --Eliminate the manual
                                                effort required to
                                                support daily and
                                                monthly external
                                                reporting.
Fiscal year 2019-2021.......  Asset            Replace the existing
                               Management.      Asset Management
                                                application with a
                                                commercial software
                                                module that will:
                                                  --Enable direct
                                                integration with
                                                financial system; and
                                                  --Eliminate redundant
                                                processes and data,
                                                increasing the
                                                efficiency and accuracy
                                                of the Senate's asset
                                                tracking.
Fiscal year 2019-2021.......  Archival Tools.  Implement data archival
                                                tools to:
                                                  --Reduce the costs and
                                                potential application
                                                performance issues
                                                associated with
                                                maintaining large
                                                volumes of financial
                                                data; and
                                                  --Ensure that all
                                                relevant data is
                                                archived together and
                                                may be restored together
                                                as needed to support
                                                Senate financial
                                                operations
------------------------------------------------------------------------

    In addition to the $2.5 million funding requested for fiscal year 
2016, the table below outlines the additional funding required for 
software and implementation services for this project.

----------------------------------------------------------------------------------------------------------------
                         Funding                           2016    2017    2018    2019    2020    2021    Total
----------------------------------------------------------------------------------------------------------------
Implementation/Acquisition..............................    2.5M      4M    3.5M      3M    2.5M    2.5M     18M
----------------------------------------------------------------------------------------------------------------

    Because of the scope and complexity of this project and best 
practices for system implementations, an FMIS Project Office within the 
Office of the Secretary will be established to oversee and manage the 
effort to ensure the project remains on schedule and within the budget 
established for the project.
    The FMIS Project Office will work in collaboration with Sergeant at 
Arms (SAA) functional and technical staff, as well as representatives 
from FMIS stakeholder groups, including Member Offices, Committees, the 
Committee on Rules and Administration audit staff, and Disbursing 
Accounts Payable and Accounting staff, throughout the modernization 
effort to ensure financial applications are supportable and 
maintainable in both the near and long term. This will ensure that the 
modernized system fully meets Senate user requirements throughout the 
implementation period, and that end user impacts are minimized.
                     implementing mandated systems
    Two systems critical to our operation are mandated by law, the 
Financial Management Information System (FMIS) and the Legislative 
Information System (LIS), and I would like to spend a few moments on 
each to highlight recent progress.
Update on current status of Financial Management Information System 
        (FMIS)
    During calendar year 2014, Disbursing implemented the following 
releases:

  --FMIS 13.3, April 2014: Modernized office, SAA, Committee on Rules 
        and Administration audit staff, and Disbursing document 
        inboxes, moving functionality from an outdated legacy framework 
        to a standardized framework, correcting over 85 user reported 
        defects related to these functions, and implemented imaging 
        support for additional document types including invoices and 
        Expense Summary Reports (ESRs); and
  --FMIS 13.3.1 through FMIS 13.3.3, May-November 2014: Implemented 
        performance enhancements, and defect corrections to support 
        imaging and new versions of Oracle's java client to facilitate 
        continued Senate-wide rollout of paperless workflow.

    In addition, work continued related to document imaging and 
electronic signatures in FMIS, in the following phases:
  --Phase 1: Imaging-only pilot (completed in 2011);
  --Phase 2: Office imaging and signatures pilot (completed in 2012); 
        full rollout beginning with new offices (completed rollout to 
        44 offices, Committee on Rules and Administration audit staff, 
        and Disbursing's accounts payable and accounting staff through 
        2014); and
  --Phase 3: Planning and development to support imaging and signatures 
        for SAA and staffer users, including:
    --Imaging to support invoices and associated vouchers for SAA and 
            the Secretary (completed development in 2014; pilot planned 
            for the Fall of 2015); and
    --Imaging to support staffers creating ESRs (completed development 
            in 2014; pilot planned for the Summer of 2015).

    In October 2014, we implemented FMIS changes to support in-house 
printing of payroll checks to meet Disbursing requirements not met by 
Treasury and to standardize Senate payment processing procedures.
    During 2014, the Disbursing Office continued to work with the SAA 
to extend the life of existing FMIS applications to ensure ongoing 
support of Senate business processes. This included upgrades to the 
WebSphere application server to support WebFMIS and digital signing 
applications and eliminating or repurposing underutilized regions in 
the mainframe to streamline support and associated costs.
    During the remainder of fiscal year 2015 and beyond, the following 
FMIS activities are anticipated:
  --Imaging and digital signatures.--Continue with Senate-wide rollout 
        of imaging and digital signatures for the remaining Member 
        Offices and Committees;
  --Implement two FMIS Releases--
    --FMIS 14.1 (planned for the Summer of 2015).--Modernization of 
            voucher creation and review functions used by Member 
            Offices, Committees, Leadership, the Office of the 
            Secretary of the Senate, SAA, Committee on Rules and 
            Administration, and Disbursing to address user requested 
            changes, enhance supportability and ensure compatibility 
            with modern browsers; and
    --FMIS 14.2 (planned for the Winter of 2015).--Modernization of 
            additional document types, such as requisitions, purchase 
            orders, invoices and receiving reports used by the Office 
            of the Secretary of the Senate and the SAA to address user 
            requested changes, enhance supportability and ensure 
            compatibility with modern browsers;
  --Treasury reporting requirement.--Implement required changes to 
        support Treasury Account Symbol (TAS) and Business Event Type 
        Code (BETC) reporting;
  --Senate Payroll System (SPS).--Continue to work with the SAA 
        technical staff and SPS Contracting Office Technical 
        Representative (COTR) on the implementation of a self-service 
        pilot and upgrade PeopleSoft to version 9.2; and
  --Disaster recovery.--Conduct a multi-day test of FMIS failover and 
        failback.

    We continue to prioritize requirements to extend the life of 
existing FMIS applications and their platforms to allow time to 
implement FMIS modernization in phases.
Update on current status of Legislative Information System (LIS) 
        Project
    The Legislative Information System (LIS) is a mandated system (2 
U.S.C. 6577) that provides desktop access to the content and status of 
legislative information and supporting documents. In addition, pursuant 
to 2 U.S.C. 181, a program was established to provide for the widest 
possible exchange of information among legislative branch agencies. The 
long-range goal of the LIS Project is to provide a ``comprehensive 
Senate Legislative Information System" to capture, store, manage, and 
distribute Senate documents. The project is currently focused on a 
Senate-wide implementation and transition to a standard system for the 
authoring and exchange of legislative documents that will greatly 
enhance the availability and re-use of legislative documents within the 
Senate and with other legislative branch agencies.
    Extensible Markup Language (XML) has been accepted as the primary 
data standard to be used for the exchange of legislative documents and 
information. Following the implementation of the LIS, the LIS Project 
Office shifted its focus to the data standards program and established 
the LIS Augmentation Project (LISAP). The overarching goal of the LISAP 
is to provide a Senate-wide implementation and transition to XML for 
the authoring and exchange of legislative documents.
    The LIS Project Office continued to provide support to the Office 
of the Senate Legislative Counsel (SLC); the Committee on 
Appropriations; the Committee on Commerce, Science, and Transportation; 
and the Senate Enrolling Clerk in their use of the XML authoring 
application, Legislative Editing in XML Application (LEXA) for 
drafting, engrossing, and enrolling. With the addition of the Commerce 
Committee drafters, all Senate measures in the 113th Congress were 
produced in XML. In addition, the Government Publishing Office (GPO) 
uses LEXA to complete measures for printing. Several new features and 
fixes were added in LEXA releases to improve the drafting process.
    The LIS Project Office has been working with staff from GPO and the 
Legislative Computer Systems (LCS) in the Office of the House Clerk to 
create and print committee reports in XML. This office released a LEXA 
committee report application to the Commerce Committee in 2013, and the 
committee drafters were able to create several sections of their 
committee reports using the LEXA application. In 2014, additional LEXA 
enhancements allowed the committee drafters to create almost all 
committee report sections in XML by using direct input, copy/paste from 
Word documents, and copy/paste from Lexis/Nexis. The office will next 
work with the editorial and printing staff of the Committee on 
Appropriations to begin creating committee reports in XML.
    Other enhancements to LEXA in the past year included new features 
for drafting amendments, improvements in drafting and printing for the 
Appropriations Committee, and new templates for the Enrolling Clerk.
    Two other group projects with GPO and LCS include participants from 
the Law Revision Counsel and the Senate and House Legislative Counsels. 
The first project with the Law Revision Counsel will result in 
applications to convert and maintain the U.S. Code in an XML format. 
The second project with the Legislative Counsels continues work toward 
the editing and printing of the compilations of existing law in their 
XML format. As of early December 2014, all compilations are now edited 
and maintained in XML. Printing of XML compilations continues to 
improve.
    The LIS Project Office is also monitoring and participating in 
GPO's project to replace Microcomp with a new composition system that 
can directly ingest XML data without having to convert it to another 
format before printing.
    The LIS Project Office will continue to support all Senate offices 
using LEXA and will continue to work with the House, GPO, and the 
Library of Congress on projects and issues that impact the legislative 
process and data standards for exchange. The office will continue to 
produce enhancements to LEXA and to seek out new technologies to 
improve the production of legislative documents.

                          LEGISLATIVE SERVICES

    The Legislative operations of the Office of the Secretary of the 
Senate provide support essential to Senators in carrying out their 
daily Chamber activities as well as the constitutional responsibilities 
of the Senate. Legislative Services consists of the following 
departments: Bill Clerk, Captioning Services, Daily Digest, Enrolling 
Clerk, Executive Clerk, Journal Clerk, Legislative Clerk, Official 
Reporters of Debates and Parliamentarian. The average length of Senate 
service among the Secretary's Legislative Department heads is more than 
20 years.
    The Secretary's Office maintains an exceptionally good working 
relationship with the Government Publishing Office (GPO) and seeks to 
provide the best service possible to meet the needs of the Senate. GPO 
continues to respond in a timely manner to the Secretary's request, 
through the Legislative staff, for the printing of bills and reports, 
including the expedited printing of priority matters for the Senate 
Chamber.
                               bill clerk
    The Office of the Bill Clerk collects and records data on the 
legislative activity of the Senate, which becomes the historical record 
of official Senate business. The Bill Clerk's Office keeps this 
information in its handwritten files and ledgers and also enters it 
into the Senate's automated retrieval system so that it is available to 
all House and Senate offices via the Legislative Information System 
(LIS) and the Amendment Tracking System (ATS). The Bill Clerk records 
actions of the Senate with regard to bills, resolutions, reports, 
amendments, cosponsors, public law numbers, and recorded votes. The 
Bill Clerk is responsible for preparing for print all measures 
introduced, received, submitted, and reported in the Senate. The Bill 
Clerk also assigns numbers to all Senate bills and resolutions. All the 
information received in this office comes directly from the Senate 
floor in written form within moments of the action involved, so the 
Bill Clerk's Office is generally regarded as the most timely and most 
accurate source of legislative information.
                          captioning services
    The Office of Captioning Services provides real-time captioning of 
Senate floor proceedings for the deaf and hard-of-hearing and 
unofficial electronic transcripts of Senate Floor proceedings to Senate 
offices on Webster.
    Captioning Services strives to provide the highest quality closed 
captions and is comprised of seasoned and respected captioners. The 
overall accuracy average rate for the Office is above 99 percent, the 
21st year in a row the Office has achieved that level. Overall caption 
quality is monitored through daily translation data reports, monitoring 
of captions in real-time, and review of caption files on Webster. In an 
effort to decrease paper consumption and printing costs, accuracy 
reviews and reports were primarily completed in electronic form.
    The real-time searchable Closed Caption Log, available to Senate 
offices on Webster, continues to be an invaluable tool for the entire 
Senate community. Legislative Floor staff, Cloakroom staff, and member 
offices in particular continue to depend upon its availability, 
reliability, and contents to help them in the performance of their 
everyday duties. In conjunction with the Senate Recording Studio, a 
complete overhaul of the Caption Log was designed in 2012-2013. Roll-
out of this new digital version occurred in 2014 and is available 
through the Senate Recording Studio VideoVault Browser. In addition, 
Captioning Services purchased new hardware, which increased the 
efficiency of the office.
                              daily digest
    The Office of the Daily Digest is responsible for publication of a 
brief, concise and easy-to-read accounting of all official actions 
taken by the Senate in the Congressional Record section known as the 
Daily Digest. The Office compiles an accounting of all meetings of 
Senate committees, subcommittees, joint committees and committees of 
conference.
    The Office enters all Senate and Joint committee scheduling data 
into the Senate's Web-based scheduling application system. Committee 
scheduling information is also prepared for publication in the Daily 
Digest in three formats: Day-Ahead Schedule; Congressional Program for 
the Week Ahead; and the extended schedule which actually appears in the 
Extensions of Remarks section of the Congressional Record. The office 
also enters all official actions taken by Senate committees on 
legislation, nominations, and treaties into LIS.
    The Office publishes a listing of all legislation which has become 
public law, as well as a ``Resume of Congressional Activity'' which 
includes all Congressional statistical information, including days and 
time in session; measures introduced, reported and passed; and roll 
call votes. The ``Resume'' is published on the first legislative day of 
each month in the Daily Digest.
    All hearings and business meetings (including joint meetings and 
conferences) are scheduled through the Office of the Daily Digest and 
are published in the Congressional Record, on the Digest's Web site on 
Senate.gov, and in LIS. Meeting outcomes are also published by the 
Daily Digest in the Congressional Record each day and continuously 
updated on the Web site.
    The Office of the Daily Digest publishes a ``20-Year Comparison of 
Senate Legislative Activity'' which can be found at: http://
www.senate.gov/reference/resources/pdf/yearlycomparison.pdf.
                            enrolling clerk
    The Office of the Enrolling Clerk prepares, proofreads, corrects, 
inputs amendments and prints all legislation passed by the Senate prior 
to its transmittal to the House of Representatives, the National 
Archives, the White House, the United States Claims Court, and the 
Secretary of State. Electronic files of all measures engrossed and 
enrolled in the Senate are transmitted daily by the enrolling clerks to 
GPO for overnight distribution and public Web access.
    The Enrolling Clerk's Office keeps the original official copies of 
bills, resolutions, and appointments from the Senate Floor through the 
end of each Congress.
                            executive clerk
    The Executive Clerk prepares an accurate record of actions taken by 
the Senate during executive sessions (proceedings on nominations and 
treaties) which is published as the Journal of the Executive 
Proceedings of the Senate at the end of each session of Congress. The 
Executive Clerk also prepares the daily Executive Calendar as well as 
all nomination and treaty resolutions for transmittal to the President. 
Additionally, the Executive Clerk's Office processes all executive 
communications, presidential messages, and petitions and memorials.
    The online historical archive of Senate Executive Calendars was 
completed, with all available issues from 1943 to the present now 
digitized and made publicly available on Senate.gov through the 
collaborative efforts of the Executive Clerk, the Library, the Office 
of Web Technology, and the LIS Project Office.
    A nightly report of executive nominations was developed and 
automated by Web Technology in conjunction with staff from member 
offices and the SAA. This included mapping individual nominations with 
their assigned calendar numbers. Previously, this information was 
unavailable in a machine readable format. The new report provides a 
user friendly and machine readable version in Extensible Markup 
Language (XML) that is updated nightly.
                             journal clerk
    The Journal Clerk takes notes of the daily legislative proceedings 
of the Senate in the ``Minute Book'' and prepares a history of bills 
and resolutions for the printed Journal of the Proceedings of the 
Senate, or Senate Journal, as required by Article I, Section V of the 
Constitution. The content of the Senate Journal is governed by Senate 
rule IV, and is approved by the Senate on a daily basis. The Senate 
Journal is published each calendar year.
    The Journal staff take 90-minute turns at the rostrum in the Senate 
Chamber, noting the following by hand for inclusion in the Minute Book: 
(i) all orders entered into by the Senate through unanimous consent 
agreements, (ii) legislative messages received from the President of 
the United States, (iii) messages from the House of Representatives, 
(iv) legislative actions as taken by the Senate including motions made 
by Senators, points of order raised, and roll call votes taken, (v) 
amendments submitted and proposed for consideration, (vi) bills and 
joint resolutions introduced, and (vii) concurrent and Senate 
resolutions as submitted. These notes of the proceedings are then 
compiled in electronic form for eventual publication of the Senate 
Journal. Compilation is efficiently accomplished through utilization of 
the LIS Senate Journal Authoring System. The Journal Clerk completed 
the production of the 2013 volume of the Senate Journal in 2014. It is 
anticipated that work on the 2014 volume will conclude by August 2015.
                           legislative clerk
    The Legislative Clerk sits at the Secretary's desk in the Senate 
Chamber and reads aloud bills, amendments, the Senate Journal, 
presidential messages, and other such materials when so directed by the 
presiding officer of the Senate. The Legislative Clerk calls the roll 
of members to establish the presence of a quorum and to record and 
tally all yea and nay votes. The office staff prepares the Senate 
Calendar of Business, published each day that the Senate is in session, 
and prepares additional publications relating to Senate class 
membership and committee and subcommittee assignments. The Legislative 
Clerk maintains the official copy of all measures pending before the 
Senate and must incorporate into those measures any amendments that are 
agreed to. This office retains custody of official messages received 
from the House of Representatives and conference reports awaiting 
action by the Senate. The office staff is responsible for verifying the 
accuracy of information entered into LIS by the various offices of the 
Secretary.
    During the second session, the Legislative Clerk requested GPO to 
make available online Senate publications produced by the legislative 
staff. The publications include the Committee and Subcommittee 
Assignments of Senators and the Class List prepared and printed by the 
Legislative Clerk and the Senate Journal prepared and printed by the 
Journal Clerk. These publications are also now available on Webster.
                     official reporters of debates
    The Office of the Official Reporters of Debates is responsible for 
the stenographic reporting, transcribing, and editing of the Senate 
Floor proceedings for publication in the Congressional Record. The 
Chief Reporter acts as the editor-in-chief and oversees the production 
of the Senate portion of the Congressional Record to ensure its 
accuracy and consistency to Senate parliamentary rules and procedures.
    When the Senate is in session, the electronic and paper transcripts 
of the Floor proceedings of the Senate begin to go to GPO in the early 
evening, and the last delivery occurs approximately 3 hours after the 
Senate adjourns or recesses for the day. The Congressional Record is 
published in paperback form and online, and is available to the public 
on the next business day.
    In 2014, the Office purchased new software for the official 
reporters and expert transcribers and new steno writers for the 
reporters in the Office, which has increased the Office's efficiency in 
the production of the Congressional Record.
    The Morning Business Editor sits in the Chamber, recording daily 
Floor activity of the Senate for the Official Reporters of Debates. The 
work includes compiling all materials printed in the Morning Business 
section of the Congressional Record.
                            parliamentarian
    The Office of the Parliamentarian continues to perform its 
essential institutional responsibilities to act as a neutral arbiter 
among all parties with an interest in the legislative process. These 
responsibilities include advising the Chair and Senators and their 
staff, as well as committee staff, House members and their staffs, 
administration officials, the media, and members of the general public, 
on all matters requiring an interpretation of the Standing Rules of the 
Senate, the precedents of the Senate, and unanimous consent agreements, 
as well as provisions of public law affecting the proceedings of the 
Senate.
    The parliamentarians work in close cooperation with the Senate 
leadership and their Floor staffs in coordinating all of the business 
on the Senate Floor. A parliamentarian is always present on the Senate 
Floor when the Senate is in session, ready to assist the Presiding 
Officer in their official duties, as well as to assist any other 
Senator on procedural matters. The parliamentarians work closely with 
the staff of the Vice President of the United States and the Vice 
President when performing duties as President of the Senate.
    The parliamentarians monitor all proceedings on the Floor of the 
Senate, advise the Presiding Officer on the competing rights of the 
Senators on the Floor, and advise all Senators as to what is 
appropriate in debate. The parliamentarians keep track of time on the 
Senate Floor when time is limited or controlled under the provisions of 
time agreements, statutes, or standing orders. The parliamentarians 
keep track of amendments offered to the legislation pending on the 
Senate Floor, assess them for germaneness and other possible points of 
order, and review countless other amendments that are never offered in 
the same regard.
    The Office of the Parliamentarian is responsible for the referral 
to the appropriate committees all legislation introduced in the Senate 
and all legislation received from the House, as well as all 
communications received from the executive branch, State and local 
governments, and private citizens. In order to perform this 
responsibility, the parliamentarians do extensive legal and legislative 
research. The office worked extensively with Senators and their staffs 
to advise them of the jurisdictional consequences of countless drafts 
of legislation, and evaluated the jurisdictional effect of proposed 
modifications in drafting.
    Following the Senate elections in 2014, the Parliamentarian's 
Office was heavily involved in the review of certificates of election 
and appointment for Senators in the class of 2015.
    In December of 2014, the parliamentarians debuted the Electronic 
Senate Precedents database, which can be found on Webster. This system 
currently contains approximately 275 precedents from 7 of the most 
frequently used chapters of Riddick's Senate Procedure. Those chapters 
are: Amendments Between the Houses, Appropriations, Cloture, 
Conferences and Conference Reports, Recommit, Reconsideration and 
Suspension. The precedents on the database augment and update the 
material found in Riddick's, which was published 23 years ago. The 
existing chapters will be added to from time to time to keep the 
material current, and new chapters will be added as updates are 
completed by the parliamentarians. This new Web site is the result of a 
great deal of research, writing, and editing on the part of the 
Parliamentarian's Office in conjunction with Office of Web Technology.

                          FINANCIAL OPERATIONS

                           disbursing office
    The mission of the Senate Disbursing Office is to provide efficient 
and effective central financial and human resource data management, 
information, and advice to the offices, members, and employees of the 
Senate. The Disbursing Office manages the collection of information 
from distributed accounting locations within the Senate to formulate 
and consolidate the agency level budget, disburse the payroll, pay the 
Senate's bills, and provide appropriate counseling and advice. The 
Disbursing Office collects information from members and employees that 
is necessary to maintain and administer the retirement, health 
insurance, life insurance, and other central human resource programs, 
and provides responsive, personal attention to members and employees on 
an unbiased and confidential basis. The Disbursing Office also manages 
the distribution of central financial and human resource information to 
the individual member offices, committees, administrative offices, and 
leadership offices in the Senate while maintaining the confidentiality 
of information for members and Senate employees.
    This past year the Disbursing Office continued to work on several 
projects that required a significant level of staff resources and 
presented challenges. Among these projects were: (1) the testing of 
system changes to the Senate Payroll System (SPS) due to the 
implementation of the Affordable Care Act (ACA), the fixes to the final 
pay period of 2013, and a retroactive COLA payment adjustment, (2) 
moving the printing of the payroll checks in-house and (3) visiting 
several Federal agencies to develop the Senate's FMIS modernization 
project. In addition, Disbursing implemented the legislative change of 
extending health benefits coverage to certain temporary excluded 
employees and we continue to work with Sergeant at Arms (SAA) staff on 
the implementation of a self-service pilot and the planning of an 
upgrade.
    In addition, the Disbursing Office is responsible for the 
compilation of the annual operating budget of the United States Senate 
for presentation to the Committee on Appropriations and for the 
formulation, presentation, and execution of the budget for the Senate. 
On a semiannual basis, this group is also responsible for the 
compilation, validation, and completion of the Report of the Secretary 
of the Senate. The Report continues to be issued electronically, 
concurrent with the printed version.

                ADMINISTRATIVE AND EXECUTIVE OPERATIONS

                  senate chief counsel for employment
    The Office of the Senate Chief Counsel for Employment (SCCE) is a 
non-partisan office established at the direction of the Joint 
Leadership in 1993 after enactment of the Government Employee Rights 
Act, which allowed Senate employees to file claims of employment 
discrimination against Senate offices. With the enactment of the 
Congressional Accountability Act of 1995 (CAA), as amended, Senate 
offices became subject to the requirements, responsibilities and 
obligations of 12 employment laws. The CAA also established the Office 
of Compliance (OOC). Among other things, the OOC accepts and processes 
legislative employees' complaints that their employer has violated the 
CAA.
    The SCCE is charged with the legal defense of Senate offices in all 
employment law cases at both the administrative and court levels. The 
SCCE attorneys also provide legal advice to Senate offices about their 
obligations under employment laws. Accordingly, each of the clients of 
the Senate is an individual client of the SCCE, and each office 
maintains an attorney-client relationship with the SCCE.
    The areas of responsibilities of the SCCE can be divided into the 
following categories: litigation (defending Senate offices in courts 
and at administrative hearings); mediations to resolve potential 
lawsuits; court-ordered alternative dispute resolutions; Occupational 
Safety and Health Act compliance; union drives, negotiations, and 
unfair labor practice charges; Americans with Disabilities Act 
compliance; layoffs and office closings in compliance with the law; 
management training regarding legal responsibilities and employee 
rights; employee and intern training regarding prohibited harassment, 
including sexual harassment; and preventative legal advice.
                     conservation and preservation
    The Office of Conservation and Preservation develops and 
coordinates programs directly related to the conservation and 
preservation of Senate records and materials for which the Secretary of 
the Senate has statutory and other authority. Initiatives include 
deacidification of paper and prints, phased conservation for books and 
documents, replacement of Congressional Serial Set maps (the Serial Set 
contains all House and Senate documents and reports), collection 
surveys, exhibits, and matting and framing for Senate leadership.
    The Office of Conservation and Preservation continues to 
participate in book repair training sessions and has made significant 
progress in the preservation of the Library's bound book collection. 
The training program preserves the bound materials in the Library's 
collections and reduces the need for the Library to contract support 
for bookbinding and repair.
                                curator
    The Office of the Senate Curator, on behalf of the Senate 
Commission on Art, develops and implements the museum and preservation 
programs for the Senate.The Curator collects, preserves, and interprets 
the Senate's fine and decorative arts, historic objects, and specific 
architectural features; and the Curator exercises supervisory 
responsibility for the historic chambers in the Capitol under the 
jurisdiction of the Commission.Through exhibitions, publications, and 
other programs, the Curator educates the public about the Senate and 
its collections.
    In keeping with scheduled procedures, all Senate collection objects 
were inventoried in 2014, noting any changes in location in the 
database. As directed by S. Res. 178 (108th Congress, 1st session), the 
Curator submitted a list of the art and historic furnishings in the 
Senate to the Senate Committee on Rules and Administration. The list, 
known as the Historic Furnishings Inventory, documents the history of 
acquisition, use, and manufacture for each object. Items on the 
inventory list are prohibited from removal or purchase. The inventory, 
which is submitted every 6 months, is compiled by the Curator with 
assistance from the Senate Sergeant at Arms (SAA) and the Architect of 
the Capitol's (AOC) Superintendent of Senate Office Buildings.
    The office continues to advance the preservation and documentation 
of the historic Russell Senate Office Building furnishings by 
conducting a yearly inspection of the use and location of the remaining 
63 flat-top partner desks, and through educational initiatives aimed at 
informing Senate staff about the history of the furnishings.
    The Curator continued to maintain and interpret the Old Senate and 
Old Supreme Court Chambers and coordinated use of both rooms for 
special occasions.The Curator is presently developing a plan for 
repairs and restoration in the Old Supreme Court Chamber and is 
conducting extensive primary source research into the original 
construction, configuration, and decoration of the room.
    Sixty objects were accessioned into the Senate Collection this 
year. A number of the items catalogued include objects used by the 
Senate in the course of conducting its legislative business, such as a 
pen set used by the Presiding Officer in the Senate Chamber. The most 
significant addition to the collection this year was the gift of an oil 
sketch executed by Constantino Brumidi. The oil sketch was created in 
ca. 1872 in preparation for a mural in the Senate Reception Room's 
south wall lunette. It depicts President George Washington with cabinet 
members Thomas Jefferson and Alexander Hamilton.
    In 2014, the Curator published To Make Beautiful the Capitol: 
Rediscovering the Art of Constantino Brumidi. The publication features 
scholarship made possible by fresh examination of Brumidi's restored 
murals and by a closer study of preliminary sketches recently added to 
the Senate collection.
    The Curator installed a new exhibit outside the Dirksen SDG-50 
Hearing Room, in conjunction with the Senate Library and Senate 
Historical Office. The exhibit, which highlights the Senate's role in 
the Civil Rights Act of 1964, was installed in showcases built into the 
walls of the room's vestibule.
    The Curator's Office reduced costs this year by having staff pack 
items for shipping, when possible, instead of hiring professional art 
handlers. This included paintings and small sculptures on loan and 
retrofitting crates for reuse. The office was also able to consolidate 
several shipments with professional art handlers, for more economical 
shipping/transportation rates and lowered the overall transportation 
and fuel costs billed to the Office of Senate Curator.
                         education and training
    The Joint Office of Education and Training provides development and 
training for Senate members, committees and staff in Washington, DC, 
and the State offices via video teleconferencing and Webinars. The 
office provides training in areas such as management and leadership 
development, human resources management, legislative and staff 
information, new staff and intern orientation, and health promotion. 
The office also provides much of the training for approved software and 
equipment used at the Senate. Technical offerings include System 
Administration, MS Office Suite, Photoshop and digital photography, and 
Senate specific applications training.
    The office partners with other training providers, both inside and 
outside of the legislative branch, to ensure Senate staff have the 
skills they need to perform their jobs. In 2014, these partnerships 
included the Library of Congress, Congressional Research Service, 
Senate Library, Government Accountability Office, Capitol.net, the 
Office of Protective Services and Continuity, Senate Historian Office, 
Office of Attending Physician, Employee Assistant Program, Chief 
Counsel on Employment, Office of Congressional Accessibility, SAA Human 
Resources, Senate Disbursing Office, Senate Ethics Committee, and 
others.
    The office also coordinates orientation for the Aides to the 
Senators-elect and new office Administrative Directors training after 
every election. This post-election orientation consists of multiple 
sessions. After swearing-in, there are additional sessions for the 
office management.
    In 2014, two State training conferences were held: the Constituent 
Services Staff Conference and the State Directors Forum.
                               gift shop
    Since its establishment in 1992 (2 U.S.C. 6576), the Gift Shop 
serves Senators and their spouses, staff, constituents, and the many 
visitors to the U.S. Capitol complex. The products available include a 
wide range of fine gift items, collectables, and souvenirs, many 
created exclusively for the Senate.
    In addition to providing products and services from two physical 
locations, the Gift Shop has an online presence on Webster. The Capitol 
kiosk temporarily closed at the end of January 2013 to accommodate 
continued restoration of the Brumidi Corridors. Along with offering 
over-the-counter and walk-in sales, as well as limited intranet 
services, the Gift Shop administrative office provides mail order 
service as well as special order and catalogue sales.
    Consistent with past practice, a transfer of $40,000 to the Senate 
Employees Child Care Center was made based on the annual sales of the 
Congressional Holiday Ornament (see 2 U.S.C. 6576(c)(3)).
    A new shared position, Inventory Control/System Specialist, was 
created to assist with IT matters for both the Stationery Room and the 
Gift Shop. While inventory and accounting are maintained separately by 
the Gift Shop and the Stationery Room, the software architecture is the 
same. This position was instrumental for the smooth and successful 
installation of upgrades to the inventory and accounting software. The 
inventory software is used to transfer merchandise electronically 
between store locations, receive merchandise from vendors on purchase 
orders, and ring up sales on the cash registers. By minimizing the 
outside vendor's involvement in the Gift Shop upgrade, there was a 
savings of $6,000 over the initial estimate to complete the upgrade. 
Expectations are that this position will continue to benefit the Gift 
Shop, in both technical advice and savings, in the coming year.
                           historical office
    Serving as the Senate's institutional memory, the Historical Office 
collects and provides information on important events, precedents, 
dates, statistics, and historical comparisons of current and past 
Senate activities for use by members and staff, the media, scholars, 
and the general public. The historians keep extensive biographical, 
bibliographical, photographic, and archival information on the nearly 
2,000 former and current senators as well as all vice presidents. The 
staff edits for publication historically significant transcripts and 
minutes of selected Senate committees and party organizations, and 
conducts oral history interviews with former Senators and staff. The 
historians offer special talks and tours to inform senators and Senate 
staff about important historical events, the history of the Capitol, 
and the Senate's institutional development. The photo historian 
maintains a collection of approximately 40,000 still pictures that 
includes photographs and illustrations of Senate committees and nearly 
all former Senators. The office staff also develops and maintains all 
historical material on the Senate Web site and provides educational 
outreach through email and Twitter.
    In commemoration of the 50th anniversary of the passage of the 
Civil Rights Act of 1964, Senate historians developed an extensive 
multimedia online exhibit for Senate.gov, presented specialized talks 
and tours, and authored articles describing the Senate's role in the 
passage of this landmark legislation.
    During 2014, the Senate transferred a multitude of records to the 
National Archives. The Senate Archivist also met with staff in all of 
the closing offices, compiled a closing Senate offices handbook, and 
acted as a liaison between members' offices and their designated 
archived repositories. In addition, the Archivist has evolved to meet 
e-records preservation changes. Principal among them is enhanced 
collaboration with the Senate IT and systems administrator community, 
pro-active archiving of legislative records and building a solid core 
of expertise within the Senate.
    The Advisory Committee on the Records of Congress was established 
in 1990 by Public Law 101-509, and meets semiannually to advise the 
Senate, the House of Representatives, and the Archivist of the United 
States on the management and preservation of the records of Congress. 
By law, the committee is required to report to Congress every 6 years 
on the status of Congress' and members' archival records. The most 
recent report was published December 31, 2012. The next report will be 
December 31, 2018. The Secretary of the Senate will chair the committee 
during the 114th Congress.
                            human resources
    The Office of Human Resources was established in June 1995 by the 
Office of the Secretary as a result of the CAA. The office focuses on 
developing and implementing human resources policies, procedures, and 
programs for the Secretary's employees.
                          information systems
    The Department of Information Systems provides technical hardware 
and software support for the Office of the Secretary. Emphasis is 
placed on creating and transferring legislative records to outside 
departments and agencies, fulfilling Disbursing Office financial 
responsibilities to the member offices, and complying with office-
mandated and statutory obligations.
    The staff interfaces closely with the application and network 
development groups within the SAA, GPO, and outside vendors on 
technical issues and joint projects. The department provides computer-
related support for all local area network servers within the Office of 
the Secretary. Information Systems staff also provides direct 
application support for all software installed workstations, initiate 
and guide new technologies, and implement next generation hardware and 
software solutions.
                      interparliamentary services
    The Office of Interparliamentary Services (IPS) is responsible for 
administrative, financial, and protocol functions for special 
delegations authorized by the Majority and/or Minority Leaders, for all 
interparliamentary conferences in which the Senate participates by 
statute, and for interparliamentary conferences in which the Senate 
participates on an ad hoc basis. The office also provides appropriate 
assistance as requested by other Senate delegations.
    The statutory interparliamentary conferences are: the NATO 
Parliamentary Assembly; the Mexico-United States Interparliamentary 
Group; the Canada-United States Interparliamentary Group; the British-
American Interparliamentary Group; the United States-Russia 
Interparliamentary Group; the United States-China Interparliamentary 
Group; and the United States-Japan Interparliamentary Group.
    On behalf of the Senate Majority and Minority Leaders, the staff 
arranges official receptions for heads of state, heads of government, 
heads of parliaments, and parliamentary delegations. Required records 
of expenditures on behalf of foreign dignitaries under authority of 
Public Law 100-71 are maintained by IPS.
    IPS receives and prepares for printing the quarterly consolidated 
financial reports for foreign travel from all committees in the Senate. 
In addition to preparing the quarterly reports for the Majority Leader 
and the Minority Leader, IPS staff also assists staff members of 
Senators and committees in filling out the required reports.
          legislative information system (lis) project office
Update on current status of Legislative Information System (LIS) 
        Project
    The Legislative Information System (LIS) is a mandated system (2 
U.S.C. 6577) that provides desktop access to the content and status of 
legislative information and supporting documents. In addition, pursuant 
to 2 U.S.C. 181, a program was established to provide for the widest 
possible exchange of information among legislative branch agencies. The 
long-range goal of the LIS Project is to provide a ``comprehensive 
Senate Legislative Information System" to capture, store, manage, and 
distribute Senate documents. The project is currently focused on a 
Senate-wide implementation and transition to a standard system for the 
authoring and exchange of legislative documents that will greatly 
enhance the availability and re-use of legislative documents within the 
Senate and with other legislative branch agencies.
    Extensible Markup Language (XML) has been accepted as the primary 
data standard to be used for the exchange of legislative documents and 
information. Following the implementation of the LIS, the LIS Project 
Office shifted its focus to the data standards program and established 
the LIS Augmentation Project (LISAP). The overarching goal of the LISAP 
is to provide a Senate-wide implementation and transition to XML for 
the authoring and exchange of legislative documents.
    The LIS Project Office continued to provide support to the Office 
of the Senate Legislative Counsel (SLC); the Committee on 
Appropriations; the Committee on Commerce, Science, and Transportation; 
and the Senate Enrolling Clerk in their use of the XML authoring 
application, Legislative Editing in XML Application (LEXA) for 
drafting, engrossing, and enrolling. With the addition of the Commerce 
Committee drafters, all Senate measures in the 113th Congress were 
produced in XML. In addition, the Government Publishing Office (GPO) 
uses LEXA to complete measures for printing. Several new features and 
fixes were added in LEXA releases to improve the drafting process.
    The LIS Project Office has been working with staff from GPO and the 
Legislative Computer Systems (LCS) in the Office of the House Clerk to 
create and print committee reports in XML. This office released a LEXA 
committee report application to the Commerce Committee in 2013, and the 
committee drafters were able to create several sections of their 
committee reports using the LEXA application. In 2014, additional LEXA 
enhancements allowed the committee drafters to create almost all 
committee report sections in XML by using direct input, copy/paste from 
Word documents, and copy/paste from Lexis/Nexis. The office will next 
work with the editorial and printing staff of the Committee on 
Appropriations to begin creating committee reports in XML.
    Other enhancements to LEXA in the past year included new features 
for drafting amendments, improvements in drafting and printing for the 
Appropriations Committee, and new templates for the Enrolling Clerk.
    Two other group projects with GPO and LCS include participants from 
the Law Revision Counsel and the Senate and House Legislative Counsels. 
The first project with the Law Revision Counsel will result in 
applications to convert and maintain the U.S. Code in an XML format. 
The second project with the Legislative Counsels continues work toward 
the editing and printing of the compilations of existing law in their 
XML format. As of early December 2014, all compilations are now edited 
and maintained in XML. Printing of XML compilations continues to 
improve.
    The LIS Project Office is also monitoring and participating in 
GPO's project to replace Microcomp with a new composition system that 
can directly ingest XML data without having to convert it to another 
format before printing.
    The LIS Project Office will continue to support all Senate offices 
using LEXA and will continue to work with the House, GPO, and the 
Library of Congress on projects and issues that impact the legislative 
process and data standards for exchange. The office will continue to 
produce enhancements to LEXA and to seek out new technologies to 
improve the production of legislative documents.
                                library
    The Senate Library provides legislative, legal, business, and 
general information services to the Senate. The Library's collection 
encompasses legislative documents that date from the Continental 
Congress in 1774; current and historic executive and judicial branch 
materials; an extensive book collection on American politics and 
history, including biographies; a popular collection of audiobooks; and 
a wide array of online resources. The Library also authors content for 
three Web sites--LIS.gov, Senate.gov, and Webster.
    Senate Information Services (SIS) program service contracts for 
fiscal years 2015 and 2016 were renegotiated with existing program 
vendors to continue services for the Senate community. SIS staff worked 
with the vendor to complete a major enhancement of site features. 
Senate staff may now easily browse and search newspapers.
    The Library continues to meet the Senate's increasing demand for 
information through the creation of new Web-based content, judicious 
selection and investment in online resources, expanded outreach and 
training opportunities, and use of technology to support alternative 
means for information delivery.
                              page school
    The Senate Page School provides students with a sound program, both 
academically and experientially, during their stay in the Nation's 
capital.
    In 2013 the Middle States Commission on Secondary Schools awarded 
accreditation renewal which continues until May 1, 2018. The Page 
School is among schools throughout the world that meet the 
internationally recognized standards of quality.
    Faculty and staff provided extended educational experiences to 
pages, including field trips, guest speakers, opportunities to play 
musical instruments and vocalize, and world languages study. The 
community service project embraced by pages and staff continues. Pages 
collected, assembled, and shipped items for gift packages to military 
personnel serving in various locations and included letters of support 
to the troops.
                     printing and document services
    The Office of Printing and Document Services (OPDS) serves as 
liaison to the GPO for the Senate's official printing, ensuring that 
all Senate printing is in compliance with Title 44, U.S. Code as it 
relates to Senate documents, hearings, committee prints and other 
official publications. The office assists the Senate by coordinating, 
scheduling, delivering and preparing Senate legislation, hearings, 
documents, committee prints and additional publications for printing, 
and provides printed copies of all legislation and public laws to the 
Senate and the public. In addition, the office assigns publication 
numbers to all hearings, committee prints, documents and other 
publications; orders all blank paper, envelopes and letterhead for the 
Senate; and prepares page counts of all Senate hearings in order to 
compensate commercial reporting companies for the preparation of 
hearings.
    During fiscal year 2014, the OPDS prepared 2,471 requisitions 
authorizing GPO to print and bind the Senate's work, exclusive of 
legislation and the Congressional Record. In addition to processing 
requisitions, the Printing Services Section coordinates proof handling, 
job scheduling and tracking for stationery products, Senate hearings, 
Senate publications and other additional printed products, as well as 
monitoring blank paper and stationery quotas for each Senate office and 
committee. Examples of major printing projects are: the Report of the 
Secretary of the Senate; the 113th Congress Congressional Directory; 
the Authority and Rules of Senate Committees; and the Journal of Senate 
Proceedings, 113th Congress 1st Session.
    During 2014 over 10,000 requests for legislative material were 
received at the walk-in counter, through the mail, by fax, and 
electronically. Online ordering of legislative documents and the 
Legislative Hot List Link, where members and staff can confirm arrival 
of printed copies of the most sought after legislative documents, 
continued to be popular. The site is updated several times daily as new 
documents arrive from GPO to the Document Room. In addition, the office 
handled thousands of phone calls pertaining to the Senate's official 
printing, document requests and legislative questions.
                             public records
    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate that involve the Federal Election Campaign Act, as amended; the 
Lobbying Disclosure Act (LDA) of 1995, as amended; the Senate Code of 
Official Conduct; Rule 34, Public Financial Disclosure; Rule 35, Senate 
Gift Rule filings; Rule 40, Registration of Mass Mailing; Rule 41, 
Political Fund Designees; and Rule 41(6), Supervisor's Reports on 
Individuals Performing Senate Services; and Foreign Travel Reports. The 
office works closely with the Federal Election Commission (FEC), the 
Senate Select Committee on Ethics, and the Clerk of the House 
concerning the filing requirements of the aforementioned acts and 
Senate rules.
    From October 2013 through September 2014, Public Records staff 
assisted over 10,000 individuals seeking information from or about 
reports filed with the office, responding to walk-in inquiries and 
inquiries by telephone or e-mail. Further, the office provides 
assistance to individuals attempting to comply with the provisions of 
the LDA.
    Implementation of the Stop Trading on Congressional Knowledge Act 
(STOCK Act) continued into fiscal year 2014. The STOCK Act, as amended, 
required the Secretary to collaborate on the development of an 
electronic filing system for member and employee financial disclosure 
reports. Working in coordination with the SAA and the Ethics Committee, 
the Public Records office participated in the planning and development 
of the electronic filing system which was successfully launched on 
January 1, 2014.
    The LDA requires semiannual contribution reports, and quarterly 
financial and lobbying activity reports. To continue implementation of 
the LDA, the Public Records Office conducted two LDA Guidance reviews 
in coordination with the Clerk of the House. As of September 30, 2014, 
there were 4,443 registrants representing 16,163 clients. The total 
number of individual lobbyists disclosed on fiscal year 2014 
registrations and reports was 11,950. The total number of lobbying 
registrations and reports processed was 108,414. The office referred 
949 cases of potential noncompliance to the U.S. Attorney for the 
District of Columbia.
    The Federal Election Campaign Act requires Senate candidates to 
file quarterly and pre- and post-election reports with the Secretary of 
the Senate. Filings for the fiscal year totaled 4,722 documents 
containing 439,745 pages, which were scanned, processed, and 
transmitted to the FEC, as required by law. During the calendar year 
2014, an election year, the office processed 5,921 reports containing 
718,827 pages, an all-time record for total number of pages processed.
    The filing date for Public Financial Disclosure Reports was May 15, 
2014. The reports were made available to the public and press as soon 
as they were filed and processed, and in most cases, the same day. 
Public Records staff provided copies to the Ethics Committee and the 
appropriate State officials.
    Senators are required to file mass mailing reports on a quarterly 
basis. The number of pages submitted during fiscal year 2014 was 582. 
In addition, the Public Records Office received 454 Gift Rule/Travel 
reports during fiscal year 2014.
                            stationery room
    Since it was formally established in 1854, the Senate Stationery 
Room has evolved into a diversified retail outlet serving the needs of 
the Senate community by providing a wide range of office and 
administrative supplies, communication and computer accessories, and 
special order items for official Government business. Additionally, the 
Stationery Room provides U.S. flags flown over the Capitol for 
constituent requests.
    The Stationery Room fulfills its mission by: utilizing open market, 
competitive bid, or General Services Administration schedules for 
supply procurement; maintaining sufficient in-stock quantities of 
select merchandise to best meet the immediate needs of the Senate 
community; developing and maintaining productive business relationships 
with a wide variety of vendors to ensure sufficient breadth and 
availability of merchandise; maintaining expense accounts for all 
authorized customers and preparing monthly activity statements; and 
managing all accounts receivable and accounts payable reimbursement.
    The Stationery Room, with the assistance of the Office of Web 
Technology, maintained an online Web ordering portal through Webster. 
The Web site offers an up-to-date Stationery Room catalog with product 
description, price, and pictures. Customers can place a stock order 
online and request direct delivery to a location of their choice. 
During fiscal year 2014, the Stationery Room received and processed 
more orders than fiscal year 2013. Use of the Web site helps reduce 
order time, increases customer convenience and order accuracy, and 
reduces the use of paper through reduced reliance on hard copy orders. 
Moving forward, the Stationery Room anticipates increased use of this 
Web site as customers discover the benefits of its use.
    Utilizing the Pay.gov service offered by the U.S. Department of the 
Treasury, the Stationery Room has been accepting online flag requests 
and payments from constituents through member Web sites. At the end of 
fiscal year 2014, 43 member offices were offering this payment option 
and most of the new member offices are in the beginning stages of the 
program. The benefits include a reduced wait time for constituents, 
elimination of payment inaccuracies, and greatly reduced workload for 
office representatives. The Stationery Room will continue to expand the 
service.
    The Stationery Room prepares activity statements for approximately 
300 customer accounts on the last business day of each month. One 
upgrade most requested by our customers is for the Stationery Room to 
post the account statements directly to TranSAAct, the online business 
services portal for Senate offices. The inclusion of Stationery in the 
latest TranSAAct release occurred in early fiscal year 2014, enabling 
customers to print statements, current and historical, and research 
transaction details directly from their desktop. The Stationery Room 
expects to save over $500 a year in paper costs and, most importantly, 
reduce paper use by 45,000 individual sheets.
    The Stationery Room will be replacing older, outdated handheld 
scanners with new tablets and scanners to interact more efficiently 
with the SAA upgraded wireless infrastructure. The Stationery will save 
over $5,250 annually by eliminating all paper receipts using the 
signature capture feature on the tablets. The Stationery Room will save 
over $5,250 annually by eliminating all paper receipts using the 
signature capture feature on tablets. When an office inquires about the 
status of their order, the Stationery Room will be able to respond 
immediately by accessing the information from the tablet.
                             web technology
    The Office of Web Technology is responsible for: Senate.gov; the 
Secretary's Page on Webster; and other portions of Webster--available 
to Senate staff, along with the Web-based systems, servers, and 
technologies supporting these Web sites that fall under the purview of 
the Secretary of the Senate.
    Senate.gov content is maintained by over 30 contributors from seven 
departments of the Secretary's Office and three departments of SAA. All 
content is controlled through the Secretary's Web content management 
system, managed by the Office of Web Technology.
    Five oral histories, 30 Senate Stories, and five featured 
biographies authored by the Senate Historical Office were added to 
Senate.gov this year. In addition, a new style for displaying roll call 
votes was deployed on Senate.gov. The new modern display makes scanning 
and in depth reading of votes easier and utilizes Library of Congress 
Handles for linking to legislation.
    In preparation for the start of the 114th Congress, the office 
built individual member pages for the 13 newly sworn Senators. Web 
Technology coordinated with the individual designees to attain 
necessary materials, answer questions, and acquire approval so all 
members had a presence online when sworn in for the 114th Congress. 
Much education was provided to designees for options to replace the 
temporary Web page with more permanent solutions, along with 
facilitating domain redirects to ensure constituents are always able to 
easily find their members' Web sites.
    The eDear Colleague site was launched and built to automatically 
update daily. In conjunction with the Senate Library the newly 
developed system allows for full-text searches of letters and 
attachments that were distributed via email starting in 2012 and some 
legacy documents provided by the Senate Rules Committee starting in 
2011. The site allows for sorting by title, data, Congress, bill 
number, and person through leveraging advanced coding techniques and a 
customizable enterprise search engine. The automated system makes 
previously difficult to find information easily available. The site was 
built using existing resources.
    In 2014 an average of 28,370 visits occurred per day to the central 
site of Senate.gov. The Office responded to approximately 423 emails 
from the general public regarding Senate.gov sites. This is a 66 
percent decrease from the previous year which is due to advances in 
information architecture, search results, and custom error pages to 
help users resolve issue on their own.

             EMERGENCY PREPAREDNESS AND CONTINUITY PLANNING

    Throughout 2014, the Office of the Secretary continued to build 
upon a comprehensive emergency preparedness and continuity program 
initiated in 1997. The program extends from continuity of operations 
(COOP) planning within every department of the Office of the Secretary; 
to coordination with Leadership and the Sergeant at Arms on Senate-wide 
continuity plans; joint planning with the House of Representatives on 
bicameral programs; and inter-branch coordination with the executive 
and judicial branches. The objective of these programs is to provide 
Leadership the tools needed to ensure that the Senate can meet its 
constitutional obligations under any circumstances.
    Within the Office of the Secretary, the primary objective is the 
continuity of the legislative process. The Legislative Staff and 
supporting offices maintain and regularly exercise plans to ensure that 
the Senate can convene and conduct legislative business under any 
conditions in various locations. Departments responsible for the 
execution of statutory obligations, such as the Disbursing Office and 
the Office of Public Records, maintain plans to carry out those 
functions, either locally or elsewhere, depending upon conditions. All 
Departments within the Office of the Secretary maintain individual 
plans to ensure that each Department can carry out its minimum 
essential functions during an emergency, until full operations can be 
restored. All Departmental plans are supported by emergency supply kits 
stored in multiple locations within and outside the District of 
Columbia. Across the Office of the Secretary, monthly drills, annual 
exercises, and flyaway kit updates are conducted in order to ensure 
that plans and supply kits are current, and that staff understand their 
continuity responsibilities. A cross-training program in the 
Legislative Departments ensures that staff with the skills required to 
support Floor operations will be available during an emergency.

    Senator Capito. Mr. Larkin, Sergeant at Arms.

                              U.S. SENATE

                    Sergeant at Arms and Doorkeeper

STATEMENT OF HON. FRANK J. LARKIN, SERGEANT AT ARMS
ACCOMPANIED BY JIM MORHARD, DEPUTY SERGEANT AT ARMS

    Mr. Larkin. Chairman Capito and Ranking Member Schatz, 
thank you for the honor of testifying before you today in this 
subcommittee.
    I have a formal record that I ask be submitted for your 
further review.
    Senator Capito. Without objection, it is submitted. Thank 
you.
    Mr. Larkin. Thank you.
    As the new 40th Sergeant at Arms, 10 weeks on the job, this 
has been an active time since we have come into office. We have 
hosted the State of the Union, a number of congressional off-
sites, joint sessions of Congress, dealt with challenges from 
mother nature and other issues that related to security and 
some of the dynamic threats that challenge this Nation today.
    The transition into the office has been made with very 
little distraction, and I thank my predecessor, Drew Willison, 
and the prior Sergeants at Arms, Terry Gainer, and Bill Pickle 
for a lot of that assistance, along with my Sergeant at Arms 
senior staff seated behind me today. And I particularly point 
out my deputy, Jim Morhard, who is a longtime Hill associate, 
and very much thankful for his presence on the team and the 
knowledge that he brings to the staff, along with the other 
exceptional professionals who are truly dedicated to supporting 
the Senate and the success of what we do in this legislative 
branch.
    Additionally, I would like to thank your professional 
staff. They have also been of great assistance in this 
transition.
    In order to maximize time for your questions, I would just 
like to cover five main points that I have been focusing on as 
the Sergeant at Arms since coming into office.
    The first is the safety and security of this institution. 
And certainly the attention has been to place the appropriate 
security measures in place to be effective against the dynamic 
threats, as I alluded to earlier, that challenge this Nation, 
and we can talk about that a little bit more in detail as we go 
on. This Senate needs to be able to legislate free of 
distraction, and again, that is the charge of the Sergeant at 
Arms Office, along with my partnership with the U.S. Capitol 
Police and the Secretary of the Senate. And again, we will stay 
very much focused on that task.
    The second point I would like to make is regarding our 
cyber health and network defense, again another major effort 
underway within my department to validate that our information 
systems are as strong as they can be, that in fact we are on 
top of our equipment refresh efforts to minimize any failures 
within the system from what we have experienced in the past 
from our operations forward and also to be able to evaluate 
ourselves using both internal resources and external resources 
to evaluate network defense, to truly grade ourselves on our 
ability to protect our information systems.
    The third point of focus is truly customer relations, our 
ability to support the Senate and all the member offices 
effectively with the wide spectrum of components that make up 
the Sergeant at Arms. As you know, the Sergeant at Arms is 
responsible for printing services, mail screening, mail 
delivery, some maintenance aspects for the U.S. Capitol. We 
also handle the support services associated with parking, 
transportation, et cetera. So it is not just the safety and 
security that very much draws the attention of the Sergeant at 
Arms but is a lot of the other working parts, components that 
keep the trains running, so to speak, for the Senate.
    The fourth area is the continuity preparedness. As the 
Secretary of the Senate alluded to, again, a very serious 
responsibility that involves significant planning and effort, 
that in fact if we have to consider relocation and standing up 
the Senate in alternate type scenarios, that we can do that 
seamlessly and effectively, minimizing any time shortage.
    And the final area that, again, is of particular focus is 
in the partnerships and relationships. As we have talked, it is 
critical that within the Senate here that not only the 
Secretary of the Senate and U.S. Capitol--that we have a 
seamless and truly transparent relationship with each other 
just because of the way the different issues crosswalk into our 
areas of responsibility, but also that effort needs to 
transcend over to the House Sergeant at Arms, the 
Administrative Officer in the House and the Clerk--especially 
for the joint programs where we are looking to gain 
efficiencies and increase the level of communications with the 
other side. It is very important that we have those 
relationships and that they are as tight as possible.
    Externally it is the relationships with our law enforcement 
partners, the intelligence community, our defense assets and 
other agencies that come into play especially as we talk about 
continuity operations.
    As the Sergeant at Arms, I very much pay attention to how 
my various components can increase our efficiency and 
effectiveness with the appropriate funding and that I provide a 
level of accountability to you that, again, reaches your 
expectations and, finally, to be able to justify that with 
measurable results, again, that demonstrate that the 
appropriations that you have afforded us in fact are being 
applied properly and are having the effect that successfully 
supports the Senate.
    And with that, Madam Chairman, I yield my time.
    [The statement follows:]
               Prepared Statement of Hon. Frank J. Larkin
                              introduction
    Madam Chairwoman, Ranking Member Schatz, and members of the 
subcommittee, thank you for allowing me to testify today. I am pleased 
to report on the progress the Office of the Senate Sergeant at Arms 
(SAA) and our plans to enhance our service to the Senate.
    For fiscal year 2016, the Sergeant at Arms respectfully requests a 
total budget of $205,974,000. This request represents a 4.4 percent 
increase from the current enacted budget, but is nearly identical to 
our budget level from fiscal year 2008. Today, our organization has 
approximately 70 fewer employees than we did in 2010.
    As someone new to the Sergeant at Arms organization, I am both 
fortunate and grateful to have the support of an outstanding senior 
management team. It includes my Deputy, Jim Morhard; Chief of Staff, 
Mike Stenger; Assistant Sergeants at Arms Dick Attridge (Intelligence 
and Protective Services), Vicki Sinnett (Chief Information Officer), 
Bret Swanson (Operations), and Kevin Morison (Capitol Operations); 
General Counsel Terence Liley; Legislative Liaison Mason Wiggins; 
Democratic Liaison Scott Rodman; and Chief Financial Officer Chris Dey. 
The many goals and accomplishments set forth in this testimony would 
not have been possible without this team's leadership and commitment, 
as well as the dedication of the women and men who work for the Senate 
Sergeant at Arms office.
                   protective services and continuity
Emergency Preparedness
    Our emergency plans and procedures are designed to ensure the life 
safety of Senators, staff, and visitors within our facilities by 
equipping them with the necessary tools to respond to emergency 
situations. Our plans are also designed to ensure the Senate can 
continue its essential functions following an emergency event.
    Over the past year, our office worked with Senate offices to update 
188 Emergency Action Plans using guidelines set forth by the 
Occupational Safety and Health Administration as part of the 
Congressional Accountability Act. As part of this process, we look at 
the lessons learned from exercises and real world events to improve 
life-safety procedures for the Senate community.
    We conduct a robust training program to ensure the Senate community 
is prepared to respond to a variety of emergency events both at work 
and at home. Over 4,000 staff members were trained during 180 classes 
covering a variety of emergency preparedness topics. The ``Responding 
to an Active Shooter'' class continues to be one of our most popular. 
The course is taught in conjunction with the United States Capitol 
Police (USCP) and is invaluable for educating staff on what to expect 
from law enforcement throughout an active shooter event.
    We also work with USCP to execute annual evacuation, shelter in 
place, and internal relocation drills to ensure staff understand the 
correct life-safety responses to emergency events that may occur on 
Capitol Hill. We supported 26 evacuation drills that included Senate 
office buildings, the Postal Square building, Senate Page School, and 
Employee Child Care Center. We upgraded our accountability tools this 
year and provided assistance in gathering accountability information 
from offices, which is ultimately shared with USCP to track potentially 
missing staff.
    To ensure staff have the necessary equipment to respond to 
emergency situations, we supply offices with victim rescue units, 
supply kits, and annunciators. We have inventoried over 270 offices and 
27,000 pieces of emergency equipment to ensure operability and expired 
items are replaced.
    To improve our alert messaging capability, we initiated a project 
with USCP, the House of Representatives, Architect of the Capitol 
(AOC), and Library of Congress to acquire a joint emergency mass 
notification system. This project aims to reduce the number of alert 
notification systems needed to transmit critical life-safety messages 
to the Senate and Capitol complex, and eliminate outdated systems that 
are difficult to use. The goal is to reduce the time it takes to 
broadcast messages over numerous platforms, providing Senators, staff, 
and visitors with additional time to respond to emergency situations.
    We assist member offices and committees in writing their Continuity 
of Operations (COOP) plans, which are critical to the Senate's ability 
to perform its essential functions. The SAA office continues to ensure 
existing continuity plans and capabilities are regularly maintained, 
updated, and exercised. In 2014, a contingency facilities multi-day 
exercise was conducted involving four separate facilities and over 300 
participants. This was the largest exercise to date and validated plans 
that call for the capability to quickly set up and operate contingency 
facilities in support of the Senate's constitutional obligations.
    Communication among Senate staff responsible for executing plans 
during and following emergencies is critical to ensuring a successful 
outcome. Staff who have responsibilities during special events and 
emergencies were issued USCP digital radios with dedicated talk groups 
allowing for rapid communications independent of the cellular network. 
The radios were successfully utilized during numerous exercises, 
providing a valuable command and control tool.
Contingency Programs
    Sergeant at Arms staff collaborated with the Joint Continuity 
Office to further develop and refine contingency transportation and 
relocation site plans in 2014. Staff detailed to the Joint Continuity 
Office supported the planning process from developing policy guidance 
to coordinating directives from Senate leadership and finalizing Joint 
Congressional Continuity Plans. We are continually refining leadership 
evacuation sites, transportation operations, and embarkation point 
plans. These Continuity of Government (COG) plans are then coordinated 
with our congressional planning partners and supporting agencies, and 
all are continuously validated and exercised. A major accomplishment in 
2014 was the development and finalization of joint House and Senate 
space allocation breakdowns.
    To support our COG mission, we continued to refine the Senate 
Emergency Relocation Group (ERG), addressing the Senate's unique 
staffing requirements during contingency operations. Skilled SAA staff 
have been identified and trained to support Senate continuity 
operations during an emergency event requiring relocation. This program 
provides information, training, supplies, and support to 70 SAA staff 
members who will deploy during a contingency event. A functional 
exercise utilizing ERG support was conducted in 2014 and will be 
repeated this year.
    During 2014, we conducted several joint exercises with the 
Secretary of the Senate, USCP, Architect of the Capitol, Office of 
Attending Physician, party secretaries, and other congressional 
stakeholders. We completed over 20 exercises, tabletops, tests, and 
guided discussions in 2014 covering all aspects of emergency response 
including emergency operations centers, transportation, contingency 
staffing, evacuation, shelter in place, and Chamber media operations. 
This past year, we conducted the first ever functional exercise of our 
leadership evacuation plan and validated our ability to notify, 
transport, and safely relocate leadership should the need arise.
Security Planning and Police Operations
    The Security Planning and Police Operations (SPPO) program 
coordinates security and law enforcement support for the Senate 
community. The Senate community includes Senate committees, offices 
(including Senate State offices), and support offices on Capitol Hill. 
Provided support includes coordinating Senate campus access, working 
with the Committee on Rules and Administration to identify and publish 
Senate office building door and barricade openings, conducting office 
security sweeps, and installing proximity card readers and duress 
buttons. In 2014, SPPO received and processed 214 committee security 
assistance requests. They also processed 982 special requests for 
vehicle clearances, deliveries, and bus access to Capitol Hill.
    The SPPO program provides staffing for the USCP Command Center 
support program, which ensures SAA representation during all hours the 
Senate is in session, and during normal business hours during recesses. 
This ensures immediate communication among the USCP, SAA, and Senate 
community during special events, emergency incidents, and routine 
operations.
    The SPPO staff collaborated and provided support to the USCP and 
external law enforcement agencies during several special events in 
2014, including the State of the Union address, multiple Joint Sessions 
of Congress, and the U.S. Capitol summer concert series.
    The SPPO also includes the SAA's State Office Readiness program, 
which provides security and preparedness resources to State offices 
mirroring programs currently available to Capitol Hill Senate offices. 
Participating offices receive a variety of security enhancements at no 
cost to the Senate office. The program also assists State offices with 
completing an Emergency Action Plan to identify unique security and 
emergency preparedness procedures and provides emergency life safety 
equipment to State offices.
                         information technology
Senate IT Network Security and Response
    The Senate is considered a prime target for cyber security 
breaches. Operational IT security activities appear to support this 
assertion. In the first few weeks of 2015, the Senate has received an 
average of 173,000 e-mail messages per day. Of these daily totals, an 
average of 24,000 messages, or 14 percent, are being immediately 
flagged as spam or malicious.
    Many of our efforts to secure the Senate IT infrastructure are 
proactive. The Senate Secure Web Gateway prevents an average of 72,000 
connections to 1,200 different potentially malicious Web sites each 
week. The vast majority of the Secure Web Gateway prevention activity 
occurs in the background, transparent to Senate staff, so that their 
computers are automatically protected from common attacks without 
requiring them to take any direct action.
    IT Security staff continually evaluate our stewardship of Senate 
network protection responsibility based on the three-legged table of 
security, functionality, and taxpayer value. Near-term initiatives will 
allow the SAA to apply even more advanced technologies to mitigate 
cyber threats, which will reduce the Senate's overall IT cost of 
operation. Investment in new IT security technologies will further 
strengthen our malware intrusion prevention capabilities. This will 
leverage commercially available systems that have proven effective in 
many other organizations at reducing systemic IT operational risk. We 
have also begun developing the Senate's first comprehensive 
cybersecurity strategy. This 5-year strategy will cover key strategic 
focus areas and include identified critical elements of each area. This 
strategy will drive our tactical and operational IT security planning.
    In 2014, we proved the Senate mobile communication vehicles (ATLAS) 
were able to successfully support an Alternate Chamber at an offsite 
location. This allows the Senate to continue operations at a location 
where a connection to the Senate network is nonexistent.
Network Operations
    In 2014, the Network Operations Center received and serviced 2,278 
Service Center ``incident'' tickets, and processed almost 1,200 change 
requests and more than 900 LAN drop requests. From a security 
perspective, as part of the authentication process, wireless clients 
will undergo an assessment of their laptops that will verify their 
devices are compliant with up-to-date virus software and definitions, 
and operating system updates. Laptops will not be allowed onto the 
wireless LAN until they have met these criteria, further enhancing the 
overall security of the Senate network. Full implementation of 
Discovery will be complete in the next few months.
    A multi-year project that has progressed in 2014 is the use of 
broadband Internet service to support Senate State office locations. 
Using broadband Internet service significantly increases the amount of 
bandwidth at each of the 460-plus locations, increasing the performance 
at each site for both intranet and Internet services. The increased 
bandwidth also affords the ability to support emerging technologies 
such as increased video conferencing capabilities between DC and a 
State office.
Replacing Switches
    In January 2015, the Senate experienced a significant network 
outage that impacted e-mail, mobility services, the virtual 
infrastructure, senate.gov Web sites, and most Enterprise applications. 
This was the result of a hardware failure on a major distribution 
switch at the Primary Computing Facility (PCF). The hardware module was 
replaced and the switch was stabilized. A replacement switch and its 
partner at the Alternate Computing Facility (ACF) are now installed at 
both locations, and the network is scheduled to be cutover to the new 
hardware as soon as a remaining implementation issue is resolved. The 
new equipment allows us to improve on the original design, providing 
additional redundancy and eliminating the single point of failure.
Senate Payroll System (SPS)
    We are working in collaboration with the Secretary of the Senate to 
support and enhance the new PeopleSoft Senate Payroll System. This new 
system replaced a 20-year-old mainframe system and provides a state-of-
the-art technological platform that should serve the Senate well over 
the coming years. During the next quarter, we plan to begin a self-
service pilot that will allow individuals online access to view their 
pay advances, W-2s, benefits summaries, and other personal information.
Data Center Management
    We are currently modernizing the management of our two data centers 
with the addition of a centralized software system, new server rack 
smart Power Distribution Units (PDUs), and new environmental sensor 
systems. The software will allow for the bridging of information across 
organizational domains in order to provide a single holistic view of a 
data center's performance so that energy, equipment, and floor space 
are used as efficiently as possible. It will include collecting and 
monitoring of detailed power usage and environmental statistics from 
the new hardware equipment, inventory, capacity planning, workflow, as 
well as dashboards, allowing us to improve efficiency and reduce the 
risk of failures and outages.
Evaluating New Technologies
    One of our core missions is to evaluate new technologies and tools 
based on customer needs and their fit in the Senate environment. This 
includes numerous laptops, desktops, printers, mobile devices, software 
(including security patches and updates), and services.
Office Application Manager
    A new version of the Office Application Manager was released in 
November 2014. The new application has a significantly improved user 
interface and functionality, including direct upload of constituent 
checklist items (eliminating the e-mail intermediary step), ability to 
have an outside individual submit a recommendation on behalf of an 
applicant, and Active Directory authentication. The new functionality 
incorporated in this version of the application makes it the most fully 
featured and secure release to date. Currently, there have been over 
14,000 individual submissions and over 16,000 constituent accounts 
created.
Systems Management Service (SMS)
    Our Systems Management Service remains state-of-the-art by 
completing upgrades to the backend systems that provide for 
distribution of software and security patches to Senate Microsoft 
Windows and Apple Mac computers.
    We are researching the use of a new capability in the main 
application that provides the Systems Management Service software 
patching solution to Senate offices, which can provide automated 
security patches to Apple Macintosh computers as well as Windows-based 
computers. Providing Macintosh patches from this one application will 
potentially allow us to decommission the second separate system for 
Macintosh patching, producing a cost savings.
Microsoft Lync 2013
    Our unified communication capability has been enhanced by 
completing the platform upgrade to Microsoft Lync 2013. Efforts are 
underway to integrate with other legislative branch agencies. More than 
6,000 Senate accounts are enabled for Lync, with over 2,000 users 
logged in on a daily basis for instant messaging and presence. This 
year, we will further extend communication and collaboration 
capabilities of the unified client by integrating with our 
videoconferencing infrastructure and by making a new shared chat 
feature available.
Active Directory--ID System Integration and Photo Display
    A process has been developed to synchronize Active Directory 
accounts with ID System records. This process positions the Active 
Directory to be leveraged for unified identity management and 
authentication services. This means that Senate users are now able to 
manage a single set of credentials for access to a rapidly increasing 
number of resources. With a single password to manage, users are more 
likely to frequently change their password and are less likely to write 
it down or otherwise store credentials insecurely. This also better 
facilitates removal of access to systems as users depart from the 
Senate. By disabling departing users' Active Directory accounts, we 
automatically disable access to all other systems to which the users 
had access. We also used the process to deliver a new optional photo 
display service to publish ID photos in e-mail and IM.
Senate Messaging and Authentication Services (SMAS)
    We commenced activities to complete major upgrades to the Senate 
Messaging and Authentication Services environment. The upgrades to 
Microsoft Active Directory and Exchange will assure the system remains 
secure, stable, and capable of supporting current operating systems and 
applications. Deployment of Exchange Server 2013 will further improve 
the reliability of the e-mail messaging environment, reduce overall 
costs, and increase mailbox capacity.
TranSAAct--Our Platform for Doing Business Online
    Functionality continues to be added to TranSAAct, our platform for 
doing business online, eliminating paper-based manual processes and 
addressing the requirements of offices and the Committee on Rules and 
Administration. Built on an extensible modern database framework, 
TranSAAct allows indefinite expansion as new requirements are 
identified.
    In addition, we worked with the Rules Committee and the SAA parking 
office to simplify the parking request forms, improve features based on 
customer feedback, update business rules, modernize the technology, and 
improve the integration with the parking systems.
    We are currently planning a technology refresh, upgrading 
infrastructure components, migrating the platform to virtual servers, 
simplifying the architecture by eliminating a third party product, and 
migrating user and group management into TranSAAct. That effort will 
lay the groundwork for providing users the ability to create profiles 
to reduce some data entry on request forms and customize communication 
preferences. We also have plans to make the home page more useful by 
presenting consolidated information on open service requests.
Telecommunications
    Our voicemail system has been upgraded to the new software level 
10.1 and we now have 16 redundant servers. This helps support our 
continuity of operations, and we continue to look at making this 
platform more mobile and redundant. With this upgrade, we will be 
offering more voicemail features and better integration with Microsoft 
software, and we now have an Interactive Voice Response (IVR) system 
that we are preparing to assist the Capitol Operators during heavy call 
periods. We will be offering these new features in fiscal year 2016.
    In 2014, we started a multiyear process to upgrade the telephone 
system (CS2100) in Washington, DC. Once this project is completed, we 
will support session initiated protocol (SIP), which is a standard 
unified communication platform allowing us to integrate easily with 
multiple vendors including Cisco, Microsoft, and Polycom. This will 
provide the backbone to voice, video, chat, and conferencing services. 
The upgrade provides more phone features, a higher level of security, 
reduction of costs, and reduction of equipment. It also provides us the 
capability to use SIP for our phones and trunk lines to Verizon. 
Currently, our old trunks to Verizon are costly and we need more of 
them compared to the technology of SIP. In addition, we will be able to 
offer SIP phones to our customers, which allows for more mobility and 
more choices of phone types. We will have this project completed and 
begin offering these new features in fiscal year 2016.
    We have also started our State office upgrade project for 460-plus 
offices, a multiyear project that will modernize the State office 
communications systems and bring more features and security to our 
State offices at a lower cost. These systems are old and costly, and 
maintenance is becoming more difficult. Most offices will be seeing 
some of these benefits in fiscal year 2016.
    We are currently modernizing both of our telecom switch rooms and 
providing more power backup and physical security to both rooms. This 
includes relocation of some equipment to a more secured area; more 
secured access into these areas; cameras, temperature, and water 
monitors; power monitors for safety purposes; and computer monitoring 
of activity in these rooms. This project will be completed in fiscal 
year 2016.
Constituent Correspondence Services
    Over the past decade, Constituent Correspondence Services funding 
remained at the same level up until the last 2 years, when funding was 
reduced. The fund appropriation is no longer keeping up with the 
allotments to member offices and has required a requested increase to 
ensure that the fund has appropriations equal to the prescribed 
allotments. Because of cost savings throughout the CIO organization, 
this increase is achievable while having no impact to the overall SAA 
budget request.
                               operations
Central Operations
    The Senate ID Office issues Smart Cards and standard IDs using two 
different Card Management Systems (CMS). The ID Office is in the 
planning phase of simplifying this process by using one CMS, which can 
issue both types of IDs. In addition, the ID Office is planning to 
implement an Identity Management System (IDMS) in order to better 
manage Senate staff credentials across all systems supported by the 
Sergeant at Arms. A consolidated IDMS will help streamline the creation 
of user accounts and facilitate access throughout the Senate 
Enterprise. During each Congress, the Senate ID Office issues over 
35,000 IDs to Senators, staff, liaison personnel, and designated 
members of the media.
Parking Operations
    Parking Operations is adopting social media as an additional method 
of communication to the Senate community. Disseminating information 
about area and street closures, especially those due to special events 
or emergency situations, continues to be a focus of improvement.
    Monitoring renovations of underground garages scheduled for fiscal 
year 2016 and the projects' impact to Senate parking areas will be a 
primary focus of Parking Operations. The Architect of the Capitol is 
planning renovations of the Russell Legislative Garage and the Thurgood 
Marshall Judiciary Office Building Garage. The Russell Legislative 
Garage renovation will displace our parking permit issuance booth and 
over one hundred spaces under the control of the Committee on Rules and 
Administration. Parking Operations will work closely with the 
Committee's staff and AOC personnel to ensure customer service can be 
maintained and displaced garage permit holders are accommodated in 
other Senate areas. The renovation of the Judiciary Office Building 
Garage will present another set of challenges. Although we will not 
lose any spaces due to the renovation, we will be relocating our permit 
holders to different and unfamiliar spaces throughout the renovation.
Transportation and Fleet Operations
    Transportation and Fleet Operations procures and maintains Senate 
vehicles, provides transportation information to offices, and maintains 
and operates the Senate Daily Shuttle and Parking Shuttle services. The 
SAA fleet includes trucks, vans, buses, SUVs, electric vehicles, 
handicapped-accessible vehicles, and Segways.
Photography Studio
    The Photography Studio provides photography and photo imaging 
services for Senate offices and committees. The studio manages and 
maintains the Photo Browser Application, which provides Senate offices 
a secure location to upload, organize, download, and place orders for 
their photos through a Web interface. All photos in a Senator's 
collection are archived in the Photo Browser system and are accessible 
during their time in office.
Printing, Graphics, and Direct Mail
    The Printing, Graphics, and Direct Mail (PGDM) department provides 
support to the Senate community through graphic design, printing, 
mailing, document preservation, photocopying, logistics and security--
producing over 59 million items during fiscal year 2014. We continue to 
modernize processes and applications to expand our product offerings 
and enhance efficiency to meet the evolving demands of Senate offices.
    As a good steward of fiscal resources, PGDM garnered notable 
savings for the Senate. More than $1.1 million was saved in postage 
costs by pre-sorting and discounting 5.4 million pieces of outgoing 
Senate franked mail. Another $34,000 in postage was saved by using 
software to identify over 69,000 undeliverable addresses before they 
were introduced into the United States Postal Service mail stream. 
Since fiscal year 2000, the Postal Service increased the cost of a 
First Class mail piece from $.33 to $.49, which makes PGDM's mission to 
maximize discounts increasingly important. With the recent acquisition 
of state-of-the-art sorting equipment, PGDM has trained employees to 
perform routine maintenance, which generates an annual savings of 
$43,000 and ensures our equipment continues to run at an optimal level 
of performance.
    For more than a decade, PGDM has been digitizing daily letter mail 
for member offices, making it easier to provide a quicker reply to 
constituents through traditional letters, social media sites, and 
digital e-mail systems. PGDM has kept pace with the latest technology 
by implementing high-speed digital scanners, document file management 
systems, and devices that convert obsolete media to useable files. The 
implementation of PGDM's document management system, OnBase, has 
contributed to member offices gaining efficiency by going paperless and 
providing them the ability to perform searches for specific dates, 
legislative issues, or individual constituent correspondents throughout 
their entire document collection.
    Since the acquisition of our wide-format digital printing systems 
in fiscal year 2009, PGDM has printed 42,000 charts and generated a 
cost savings of approximately $3.8 million compared to having these 
charts done by an outside entity.
    PGDM maintains several high-volume production printers that have a 
combined copy count of more than 7.5 million impressions. Soon, PGDM 
will be acquiring a new high-volume digital press to replace two 
outdated printers. This action will save PGDM $40,000 in annual 
maintenance costs, and will also generate cost saving in consumable 
supplies.
Senate Post Office
    The Senate Post Office's dedicated workforce tests and delivers 
mail and packages to over 180 mail stops within the Capitol complex, 
while providing a messenger service to multiple locations within the 
Washington metropolitan area.
    We recently procured a new mail sorter that was engineered to meet 
our mail screening specifications and replaced an outdated, less 
efficient machine. This sorter has duplex imaging technology to 
facilitate easy lookup of captured images in the event of a mail 
incident or database queries on specific addressees. This will enhance 
the Senate's security by augmenting the investigative capabilities of 
the USCP in response to a threatening mail event. The maintenance 
contract for the new sorter will net a 50 percent reduction compared to 
our current costs.
Capitol Facilities
    Capitol Facilities supports the Senate community by providing a 
clean and professional work environment in the Capitol. Our 
Environmental Services division cleans Capitol spaces, moves Capitol 
furniture, and provides special event setups in the Capitol--including 
10 event spaces in the Capitol Visitor Center. The Capitol Facilities 
Furnishings division provides furniture, carpeting, and window 
treatments to Capitol offices, and framing services for offices and 
committees throughout the Senate.
    Focus continues to be on realizing cost savings while not 
sacrificing service. Salary costs in the department were reduced by 
nearly 12 percent in fiscal year 2014, resulting in savings of 
$443,000. To efficiently meet cyclical customer demands during peak 
event setups and furniture moves, Capitol Facilities supplements the 
full-time workforce with contracted labor. Using the contract workforce 
for addressing ``surge related'' events has allowed us to reduce those 
costs by 45 percent. With a reduced workforce, Capitol Facilities has 
combined job specialties and engaged in cross-training employees to 
ensure that services are maintained at the high level expected. In 
addition, we are planning an upgrade to the Capitol Facilities Online 
Request System (CapFOR) to give more information online to offices so 
that they can identify furniture that more readily meets their needs.
Office Support Services
    The State Office Liaison staff serve as the conduit between Senate 
offices and commercial or Federal landlords, overseeing approximately 
450 State offices. Funding for commercial, Federal, and mobile State 
office rents are primarily driven by the members' desire for suitable 
office space which best meets the growing needs of their local 
constituencies. The State Office Liaison staff negotiated 22 new 
commercial leases, 20 commercial amendments, 3 commercial renewals, and 
4 new Federal office leases last year. Establishing a State office 
includes many activities: coordinating furniture and furnishings, 
negotiating the rate per square footage, and coordinating parking and 
office alterations. We continue to work closely with members' staff to 
ensure they understand the cost implications in relocating an office. 
We are committed to assisting members in negotiating the most 
comprehensive lease agreements that are both cost effective and 
competitive to the commercial market rates.
                           capitol operations
    Ensuring that our customers--both internal and external--can have 
access to the Senate and understand its work remains the focus of the 
SAA's Capitol Operations team. Over the past year, team members 
provided a range of services to Senators and their staffs, visitors to 
the Capitol, members of the news media who cover Congress, and the 
public. Capitol Operations continues to focus on providing timely, 
accurate, and useful information that promotes safety, increases 
transparency, and enhances the experience of those who work in and 
visit the Senate.
Senate Recording Studio
    In a time of instant communication and demands for transparency, 
the Senate Recording Studio helps ensure that the work of the Senate 
remains accessible to the public. During 2014, the Recording Studio 
provided 908 hours of gavel-to-gavel coverage of Senate Floor 
proceedings. For individuals who prefer to view Senate proceedings 
online, the Recording Studio also provides technical support for live-
streaming and archiving on the Senate's Web site, www.senate.gov. Last 
year, this online resource was viewed 1.34 million times by more than 
136,000 unique visitors. Another priority of the Recording Studio is to 
enable Senators working in DC to communicate with their constituents 
back home. During 2014, the Recording Studio produced 787 television 
and 901 radio productions for Senators.
Senate Media Galleries
    For members of the news media, the Senate remains one of the most 
open and accessible institutions of Government. On any given day, 
hundreds of reporters, producers, photographers, videographers, and 
technical support personnel can be found in hearing rooms, hallways, 
and in the Chamber bringing the news of the Senate to people across the 
country and around the world. Ensuring that the news media can conduct 
their business efficiently, safely, and in a manner consistent with 
Senate rules is the responsibility of the staff of the four Senate 
Media Galleries. The unique structure of the Media Galleries, dating 
back to the earliest days of the Senate, requires them to work closely 
and cooperatively with their respective Standing and Executive 
Correspondents' Committees, USCP, and press secretaries and 
communications staff of Senators and Senate committees. Media Gallery 
staff facilitate media credentials and arrangements for the 7,000 
members of the news media who can cover the Senate in a given year.
Daily Press Gallery
    Daily Press Gallery staff support reporters working for 
publications who publish on a daily or more frequent basis. Last year, 
the Daily Press Gallery issued credentials to approximately 1,800 
journalists. As custodians of the largest press complex on Capitol 
Hill, the Gallery staff serve more than 100 reporters who physically 
work in the Press Gallery on a regular basis. Gallery staff also help 
control access to the Press Gallery inside the Senate Chamber and 
ensure Gallery rules are followed.
Periodical Press Gallery
    The Periodical Press Gallery staff support the news media working 
for non-daily periodicals and their online publications. Last year, the 
Periodical Press Gallery approved credentials for more than 1,200 
journalists. Gallery staff remain focused on streamlining 
communications with Gallery members and Senate staff. For example, the 
number of followers on the Gallery's Twitter account (@SenatePPG) grew 
by nearly 40 percent, to 3,600, and staff continue to increase the use 
of Facebook and Instagram as well. These efforts help drive traffic to 
the Gallery's Web site, where information on Floor proceedings, the 
credentialing process, and other areas of interest is consolidated. The 
Gallery's Web site averages approximately 50,000 hits a year.
Press Photographers Gallery
    Press Photographers Gallery staff support photographers 
representing news organizations from across the United States and 
around the world. Last year, the Gallery credentialed approximately 300 
news photographers. Unlike the other three Media Galleries, which have 
counterparts in the House of Representatives, Press Photographers 
Gallery staff support the media at news events and hearings in both 
houses of Congress. During 2014, the Gallery launched a Twitter account 
(@USSenatePhoto) to keep photographers and Senate staff apprised of 
congressional events; the account has grown to more than 600 followers.
Radio and Television Gallery
    The task of ensuring that the broadcast media's needs are met while 
the Senate's rules are followed falls largely to the staff of the Radio 
and Television Gallery. The Gallery issued credentials to approximately 
3,600 television and radio reporters, producers, and technical 
personnel. The Gallery also maintains the studio that Senators use for 
news conferences. Staff continually look to enhance the appearance and 
functionality in the studio. Last year, the Gallery oversaw 
installation of a new background element consisting of a bookshelf and 
Senate seal, and additional renovations to the audio system and camera 
risers are currently under development. Gallery staff also oversee 
upgrades to the technical infrastructure supporting committee hearing 
rooms and other news event locations. To further enhance 
communications, the Radio-TV Gallery initiated a Twitter account 
(@SenateRadioTV) during 2014, with approximately 700 followers to date.
Senate Doorkeepers
    Senate Doorkeepers play a critical role in supporting the 
legislative process of the Senate. Doorkeepers provide access to those 
with Senate Floor privileges; enforce the rules of the Senate Floor; 
and facilitate the needs of Senators, Senate Floor staff, and Senate 
Pages. Doorkeepers also provide support for a number of special events 
attended by Senators, their families, and special guests. In addition 
to directly supporting Senators, Doorkeepers also ensure that all 
Americans can visit the Senate Gallery safely and efficiently. During 
2014, approximately 202,000 people visited the Senate, in person, with 
the help of Senate Doorkeepers. That corresponded to nearly 950 people 
a day, both when the Senate was in session and during scheduled 
recesses.
Senate Appointment Desk
    The Senate Appointment Desks are responsible for processing, in a 
safe and efficient manner, thousands of guests who enter the Capitol 
each year for business meetings or other purposes. During 2014, 
approximately 184,000 visitors were processed through our network of 
Appointment Desks located on the first floor of the Capitol, in the 
basements of the Russell and Hart Senate office buildings, and in the 
Capitol Visitor Center (CVC). Of these, 116,000 visitors were in the 
Capitol for official business or a direct meeting with a member, a 
member's office, or a committee. In addition, more than 2,500 
international visitors relied on the CVC Appointment Desk for Senate 
Gallery Passes and information.
Office of Internal Communications
    The Office of Internal Communications (OIC) streamlines 
communication within the SAA organization and to the rest of the Senate 
community through a combination of online, digital, and traditional 
print publications. Last year, the Office sent 468 Notices and 101 Dear 
Colleague messages electronically, saving resources and speeding 
delivery of important information. In addition, OIC manages two Web 
sites--one internal to the SAA and the other accessible to the Senate 
community--and maintains the electronic Notice system. During 2014, OIC 
staff edited and helped produce 175 publications, including safety 
bulletins, newsletters for both Senate and SAA staff, and procedural 
manuals. Finally, the OIC manages the SAA's use of social media to 
enhance communication with SAA employees, Senators, the Senate 
community, and the public. Recently, the SAA Twitter account 
(@SenateSAA) exceeded 7,400 followers and our Facebook page surpassed 
4,000 ``likes,'' both substantial increases from a year ago.
                          saa human resources
    The primary function of the SAA Office of Human Resources is to 
provide personnel services and advice to SAA managers and employees. 
The SAA Human Resources department also provides workers' compensation, 
ergonomic assessment, Americans with Disabilities Act (ADA) 
accommodation requests, and recruitment services to the broader Senate 
community.
Senate Placement Office
    During fiscal year 2014, Senate offices submitted 513 requests for 
recruitment assistance to the Senate Placement Office; 49,401 resumes 
were processed by the Placement Office in response to these requests. 
Since the start of fiscal year 2015, the Senate Placement Office 
provided 2,404 resumes for vacancies on the staffs of Senators-elect 
and processed an additional 1,044 resumes for vacancies in other Senate 
offices and committees.
                senate office of education and training
    The Office of Education and Training provides training for all 
Senate staff in Washington, DC, and in State offices. We provide 
performance skills training on topics such as management and leadership 
development, human resources management, legislative and staff 
information, and new staff and intern orientation. The office also 
provides much of the training for approved software and equipment used 
at the Senate. Our technical offerings include system administration, 
MS Office Suite, Photoshop, and digital photography, and Senate-
specific applications training. In addition, we coordinate and provide 
major training events for State and DC staff.
    Training is provided through a variety of methods. These include 
instructor-led classes, one-on-one coaching sessions, facilitation, 
computer-based training, online lessons, Webinars, videoconferencing, 
informal training, documentation, and self-paced training.
    The Office of Education and Training partners with other training 
providers, both inside and outside of the legislative branch, to ensure 
the Senate staff have the training and skills they need to perform 
their jobs. In 2014, these partnerships included the Library of 
Congress, Congressional Research Service, Senate Library, Government 
Accountability Office, Capitol.net, the SAA Office of Protective 
Services and Continuity, Senate Historian, Office of Attending 
Physician, Employee Assistance Program, Chief Counsel on Employment, 
Office of Congressional Accessibility, SAA Human Resources, Senate 
Disbursing Office, Senate Ethics Committee, and others.
    In 2014, the Office of Education and Training and its partners 
provided 735 instructor-led classes with a total attendance of over 
3,000 students. Education and Training staff taught over 250 of the 735 
instructor-led classes, at which over 1,900 staff attended. Education 
and Training provided customized training, facilitation services, and 
coaching to more than 150 Senate member, committee, and support 
offices, benefitting more than 1,400 staff. Our trainers spent 
approximately 600 hours performing training or facilitation in 
everything from 1-hour sessions to 2 to 4 day-long retreats. We also 
coordinate the Senate's Intern Program. We provide training for intern 
coordinators as well as eight orientation and training sessions 
throughout the year; approximately 1,500 interns attended in 2014.
    After every election, we coordinate the Aides to the Senators-elect 
orientation and new office Admin Directors training. This 2-day 
orientation consists of 10 different sessions with 20-30 attendees. 
After swearing-in, we coordinate another 10-12 sessions for the office 
management. Each session is attended by 10-15 staff.
Health Promotion
    Our Health Promotion office has been legislatively mandated to 
provide Health Promotion activities and events. Our Health Promotion 
branch coordinates and runs the 2-day Health and Wellness Fair for 
Senate staff. At this fair, Senate staff can meet vendors who promote 
healthy living choices and who provide screening and testing for things 
such as bone density, hearing, cholesterol, and others. In 2014, over 
500 staff participated in health promotion activities, which included 
lung function and kidney screenings, blood drives, and seminars on 
health-related topics. We also coordinate Weight Watchers, Yoga, and 
Pilates sessions using a revolving fund. We plan to increase our 
conference offerings to include one for State Schedulers and for member 
and committee management. These conferences will provide staff who do 
similar jobs a place and time to share what is working and get ideas 
from one another.
    We will continue to expand our online training options for Capitol 
Hill and State staff. We are rolling out an Online Leadership 
curriculum for Senate managers and continue to work with our training 
partners to provide just-in-time training. Our office also plans to 
bring in experts to conduct presentations and training on timely 
management and legislative topics to complement the training that is 
already offered. Some of these topics will include Appropriations and 
Authorizations, and Managing Remote Staff, among others.
                      employee assistance program
    Our Employee Assistance Program (EAP) offers a variety of 
emotional, behavioral and work-related support resources and services 
to staff, their family members, Senate Pages, and interns. In 2014, 
nearly 1 in 20 Senate employees utilized the services of an EAP 
counselor; 370 employees took an online mental health screening; 177 
managers requested a supervisory consultation; 3,277 employees attended 
an EAP training activity; and 1,946 employees accessed resources for 
personalized information and referrals addressing childcare, parenting, 
adult care, aging, education, legal concerns, and/or financial issues.
                               conclusion
    The Sergeant at Arms is composed of a diverse array of 
organizations. All of them exist to serve the Senate so that it can 
function as part of the legislative branch of our Government. To 
provide the checks and balances on any administration, it must be able 
to function efficiently in an effort to create and pass legislation. To 
do so, the Senate Sergeant at Arms must and will provide the needed 
services that allow it to function.

                               APPENDIX A

          Office of the Sergeant at Arms--United States Senate

                   FINANCIAL PLAN FOR FISCAL YEAR 2016
                         [Dollars in thousands]
------------------------------------------------------------------------
                                                Fiscal Year  Fiscal Year
                                                    2015         2016
                                                  Enacted      Request
------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries..................................      $69,000      $72,000
    Expenses..................................       73,267       66,262
                                               -------------------------
      Total General Operations & Maintenance..      142,267      138,262
 
Mandated Allowances & Allotments..............       47,141       46,858
Capital Investment............................        1,957       15,051
Nondiscretionary Items........................        5,935        5,803
                                               -------------------------
      Total...................................     $197,300     $205,974
                                               =========================
 
Staffing......................................          892          892
------------------------------------------------------------------------

    To ensure that we provide the highest levels and quality of 
security, support services, and equipment, we submit a fiscal year 2016 
budget request of $205,974,000, an increase of $8,674,000 or 4.4 
percent compared to fiscal year 2015. The salary budget request is 
$72,000,000, an increase of $3,000,000 or 4.3 percent, and the expense 
budget request is $133,974,000, an increase of $5,574,000 or 4.4 
percent. The staffing request remains at 892.
    There are four budget categories: General Operations and 
Maintenance (Salaries and Expenses), Mandated Allowances and 
Allotments, Capital Investment, and Nondiscretionary Items.
    The general operations and maintenance salaries budget request is 
$72,000,000, an increase of $3,000,000 or 4.3 percent compared to 
fiscal year 2015.
    The general operations and maintenance expenses budget request for 
existing services is $66,262,000, a decrease of $7,005,000 or 9.6 
percent compared to fiscal year 2015.
    The mandated allowances and allotments budget request is 
$46,858,000. This budget supports State office rents, $19,691,000; 
purchase of computer and office equipment, $10,318,000; voice and data 
communications for Washington, DC, and State offices, $5,609,000; 
procurement and maintenance of member office constituent services 
systems, $5,500,000; RPC and DPC recording studios, $2,600,000; 
wireless services and equipment, $1,473,000; and State office security 
enhancements, $1,472,000.
    The capital investments budget request is $15,051,000, for DC 
network equipment upgrade, $6,290,000; storage area network, 
$3,726,000; Chamber audio upgrade, $1,900,000; and Network Management 
Equipment Upgrade, $1,840,000.
    The nondiscretionary items budget request is $5,803,000. The 
request funds projects that support the Secretary of the Senate: 
contract maintenance for the Financial Management Information System, 
$2,819,000; support for the payroll system, $2,359,000; and maintenance 
and necessary enhancements to the Legislative Information System, 
$625,000.

    Senator Capito. Thank you.
    Chief Dine.

                      UNITED STATES CAPITOL POLICE

STATEMENT OF HON. KIM C. DINE, CHIEF OF POLICE
ACCOMPANIED BY:
        DANIEL MALLOY, ASSISTANT CHIEF AND CHIEF OF OPERATIONS
        RICHARD BRADDOCK, CHIEF ADMINISTRATIVE OFFICER
        FAY F. ROPELLA, INSPECTOR GENERAL

    Chief Dine. Thank you and good morning.
    I would also ask that my full statement be accepted for the 
record.
    Chairman Capito, Ranking Member Schatz, and members of the 
subcommittee, I am honored to be here today and I appreciate 
the opportunity to present the United States Capitol Police 
budget request for fiscal year 2016.
    I am joined here today by Assistant Chief Daniel Malloy, 
our Chief of Operations, and Mr. Richard Braddock, our Chief 
Administrative Officer, as well as some members of my executive 
management team and our Inspector General.
    First, I would like to thank the subcommittee for its 
sustained and unwavering support for the United States Capitol 
Police. I would specifically like to express our appreciation 
to the subcommittee and the Congress for providing the 
necessary salaries and general expenses funding for fiscal year 
2015 to support our personnel and operations. The women and men 
of the Capitol Police work tirelessly to ensure that the 
legislative process of our Government functions without 
disruption or lapses in security or safety 24 hours a day, 365 
days a year. But none of this would be possible without your 
support and that of the Capitol Police Board.
    My management team and I are very proud of the close 
partnership that has evolved between us to make this possible. 
Your confidence in us and the support you have provided to the 
Capitol Police over the years has, indeed, been a remarkable 
contributor to our success in achieving our mission. You and 
your staff have taken the time to work closely with the 
department's leadership team and have shown a keen awareness of 
the complexity of our mission and the challenges we face.
    While our mission has not changed, the scope of the threats 
that we face is changing, and the ways in which we continue to 
adapt to those threats has to change. We will continue to meet 
our mission by finding ways to sharpen and adapt our 
capabilities while remaining true to our core values. Our 
ability to thwart attacks and safeguard the Capitol complex 
hinges on our flexibility to adapt operations and 
administrative capabilities to the changing environment.
    During fiscal year 2014, we were able to provide training 
to our officers in areas of active shooter and security 
screening, which are key skills that need to be constantly 
refreshed for our officers in this environment. In addition, 
the department was awarded the Gold Standard in Advanced Law 
Enforcement Accreditation, our fifth accreditation, from the 
Commission on Accreditation for Law Enforcement Agencies. The 
Gold Standard is awarded to law enforcement agencies that have 
exhibited strong organizational health and an absence of issues 
that detract from the professionalism of the agency. Assessors 
were on site validating policies and procedures, interviewing 
employees, and performing field observations.
    At this time, I would like to offer the subcommittee an 
overarching summary of our fiscal year 2016 request. I will 
follow this summary with a discussion of specific budget items 
of particular significance to you and the department.
    The department's fiscal year 2016 request totals nearly 
$379 million and represents an overall increase of 8.9 percent, 
or nearly $31 million over fiscal year 2015 enacted funding 
level of $348 million.
    As with other law enforcement agencies, personnel salaries 
and overtime represent the majority of our budget each year. As 
you know, we are a service organization, and we need dedicated 
and trained professionals to provide that service.
    Our fiscal year 2016 request, again, only includes funding 
for 1,775 sworn and 370 civilian positions. These are the 
staffing levels funded during fiscal year 2015. While the 
staffing levels remain static in the fiscal year 2016 request, 
the funding request represents an overall increase of 
approximately 7 percent over the fiscal year 2015 enacted 
level. This increase is necessary to address the natural salary 
increases incurred by the department and increased overtime 
costs to meet our needs, especially for the 2016 presidential 
conventions.
    The second area I want to cover in some detail is our 
requested general expenses budget, which includes protective 
travel; hiring, outfitting, and training of new sworn 
personnel; supplies and equipment; management systems; non-
personnel presidential convention support and other non-
personnel needs. We are requesting $71.4 million for general 
expenses, which is an increase of $10 million over the fiscal 
year 2015 enacted level. No new initiatives or program 
increases are included in this request. The increase results 
from normal increases in operating costs, convention costs, and 
cost to lifecycle key items and routine equipment and systems, 
and the restoration of annual levels reduced in previous fiscal 
years to meet regular needs.
    With resources provided to the department, our officers 
provide a safe environment for the facilities of Capitol Hill. 
For the U.S. Capitol Building alone, we provide a secure and 
open environment for well over 1.5 million square feet, over 
600 rooms, approximately 850 doorways, and miles of corridors, 
which speaks to the vast magnitude of our mission and how our 
ability to remain agile and prepared to respond is key to the 
accomplishment of our mission. In fiscal year 2014, the 
department performed over 9.6 million screenings of people 
entering congressional buildings, including over 1.4 million 
visitors to the Capitol Visitor Center. Outside the buildings, 
we kept the Capitol grounds safe by conducting more than 
125,000 K-9 vehicle sweeps and nearly 27,000 offsite vehicle 
inspections.
    Further, we continue to work to close audit recommendations 
and to address our material weaknesses from prior audits by 
working very closely with our Inspector General and the 
Government Accountability Office (GAO) to address identified 
issues and by providing evidence necessary to close findings. 
In particular, I am pleased to report the department received a 
fourth consecutive unqualified clean opinion on our financial 
statements. Also in fiscal year 2014, we worked closely with 
the Office of the Inspector General (OIG) to close 29 
recommendations and completed actions that we believe could 
lead to closure of another eight recommendations. Also, the 
department successfully closed all findings from outstanding 
GAO reports and closed four complete OIG audits that have been 
open since 2008. Further, we are working on the resolution of a 
number of other recommendations in order to achieve efficiency 
and effectiveness of our administrative programs. The long-term 
resolution of recommendations related to internal controls, 
business processes, and material weaknesses remains of the 
highest importance to our management team.
    I am very grateful for your time today. We will continue to 
work closely with you to make sure that we meet the needs of 
our mission in a reasonable and responsible manner. I want to 
thank the women and men of the United States Capitol Police 
(USCP) for their commitment to our mission and for their 
support. I appreciate the opportunity to appear before you 
today and we would be glad to answer any questions you may have 
at this time.
    [The statement follows:]
                 Prepared Statement of Hon. Kim C. Dine
    Chairman Capito, Ranking Member Schatz and members of the 
subcommittee, I am honored to be here today, and I appreciate the 
opportunity to present the United States Capitol Police budget request 
for fiscal year 2016. I am joined here today by Assistant Chief Daniel 
Malloy, our Chief of Operations, and Mr. Richard Braddock, our Chief 
Administrative Officer, as well as some of the members of my Executive 
Management Team and our Inspector General.
    First, I would like to thank the subcommittee for its sustained and 
unwavering support of the United States Capitol Police. I would 
specifically like to express our appreciation to the subcommittee and 
the Congress for providing the necessary salaries and general expenses 
funding for fiscal year 2015 to support our personnel and operations. 
The women and men of the Capitol Police work tirelessly to ensure that 
the legislative process of our Government functions without disruption 
or lapses in security or safety 24 hours a day, 365 days a year. But 
none of this would be possible without your support and that of the 
Capitol Police Board.
    My management team and I are very proud of the close partnership 
that has evolved between us to make this possible. Your confidence in 
us, and the support you have provided to the Capitol Police over the 
years, has indeed been a remarkable contributor to our success in 
achieving our mission. You and your staff have taken the time to work 
closely with the Department's leadership team and have shown a keen 
awareness of the complexity of our mission and the challenges we face.
    While our mission has not changed, the scope of the threats that we 
face is changing--and the ways in which we continue to adapt to those 
threats has to change. We will continue to meet our mission by finding 
ways to sharpen and adapt our capabilities while remaining true to our 
core values. Our ability to thwart attacks and safeguard the Capitol 
Complex hinges on our flexibility to adapt operations and 
administrative capabilities to the changing environment.
    Before I begin the specifics of my fiscal year 2016 budget request 
I would like to express again our appreciation to the subcommittee and 
the Congress for providing the essential salaries and general expenses 
funding for fiscal year 2015 to support our personnel and operations, 
which has ensured a high-level of capability and mission readiness.
    During fiscal year 2014, we were able to provide training to all of 
our officers in the areas of active shooter and security screening, 
which are key skills that need to be constantly refreshed for our 
officers in this environment. In addition, the Department was awarded 
the Gold Standard in Advanced Law Enforcement Accreditation, our fifth 
Accreditation, from the Commission on Accreditation for Law Enforcement 
Agencies. The Gold Standard is awarded to law enforcement agencies that 
have exhibited strong organizational health and an absence of issues 
that detract from the professionalism of the agency. Assessors were 
onsite validating policies and procedures, interviewing employees, and 
performing field observations.
    Our fiscal year 2016 mission-focused request is grounded in the 
framework of our Strategic Plan. To achieve our vision as a nationally 
recognized results-oriented law enforcement organization, the 
Department continues to reinforce a culture that supports effective 
planning, communication, accountability and employee empowerment. We 
are developing the internal framework to employ smart policing by 
taking a results-oriented, data-driven approach that effectively meets 
current and future threats and challenges. We will continue to deliver 
safety and security by deploying effective law enforcement services 
through collaboration, adaptability and innovation. We will strive for 
organizational excellence to maximize efficiency and effectiveness 
through best practices, while promoting accountability through employee 
engagement and a positive work environment. As we carry out these 
programs, employees are engaged through routine communications and are 
given an opportunity to provide feedback.
    At this time, I would like to offer the subcommittee an overarching 
summary of our fiscal year 2016 request. I will follow this summary 
with a discussion of specific budget items of particular significance 
to you and the Department.
    The Department's fiscal year 2016 request totals nearly $379 
million and represents an overall increase of 8.9 percent, or nearly 
$31 million over the fiscal year 2015 enacted funding level of $348 
million.
    As with other law enforcement agencies, personnel salaries and 
overtime represent the majority of our budget each year. As you know, 
we are a service organization, and we need dedicated and trained 
professionals to provide that service.
    The Department's fiscal year 2016 personnel request reflects our 
continuous efforts at all levels of management to effectively and 
prudently manage our existing resources to achieve the best possible 
balance of staff versus overtime to meet mission requirements. We are 
constantly analyzing our workforce to align job functions, assignments, 
workload, risk management, and organizational readiness along with the 
ever-changing threat assessments and mandatory mission requirements 
within a dynamic environment.
    In light of the fiscal constraints of the Department and the entire 
Federal Government, our fiscal year 2016 request again only includes 
funding for 1,775 sworn and 370 civilian positions. These are the 
staffing levels funded during fiscal year 2015. While the staffing 
levels remain static in the fiscal year 2016 request, the funding 
request represents an overall increase of approximately 7 percent over 
the fiscal year 2015 enacted level. This increase is necessary to 
addresses the natural salary increases incurred by the Department, and 
increased overtime costs to meet our needs, especially for the 2016 
presidential conventions.
    As you are aware, the Department's current sworn staffing levels do 
not entirely provide the necessary resources to meet all our mission 
requirements within the established sworn officer utility or the number 
of work-hours in a year that each officer is available to perform work. 
This ``utility'' number is used to determine overall staffing 
requirements, and balances the utility of available staff with annual 
salary and overtime funding along with known mission requirements such 
as post coverage, projected unscheduled events such as demonstrations, 
late sessions and holiday concerts, and unfunded requirements that 
occur after the budget is enacted, such as unforeseen critical 
emergency situations. Because of the need to fill the mission 
requirement gap through overtime, the Department has struggled to pull 
our sworn personnel offline to conduct training. In order to achieve 
mandatory training, we must utilize overtime to ensure that the 
officers may be offline for training, while meeting our daily mission 
requirements. There are flexibilities in other law enforcement agencies 
in offsetting or deferring daily requirements to allow for training 
that our unique mission does not afford.
    Thus, mission requirements in excess of available personnel must be 
addressed through the identification of efficiencies such as post 
realignment and/or reductions, technology, and cutbacks within the 
utility. Where necessary, we meet this requirement through the use of 
overtime. The Department is currently in the process of implementing an 
automated scheduling system to find more efficiency through 
information-based management, while developing training and guidance 
for supervisors on methods for reducing overtime. Once fully 
implemented, this will result in enhancements to a number of policies 
and procedures that have a direct and indirect impact on our overtime 
needs. At the requested funded staffing levels, the Department's fiscal 
year 2016 overtime projection is $30.9 million. This amount will cover 
base mission requirements, the conventions, our support of non-
reimbursable events at the Library of Congress and the ability for 
sworn employees to be backfilled while they attend necessary and 
mandatory training.
    The second area I want to cover in some detail is our requested 
general expenses budget, which includes protective travel; hiring, 
outfitting, and training of new sworn personnel; supplies and 
equipment; management systems; non-personnel presidential convention 
support and other non-personnel needs. We are requesting $71.4 million 
for general expenses, which is an increase of $10 million over the 
fiscal year 2015 enacted level. No new initiatives or program increases 
are included in this request. The increase results from normal 
increases in operating costs, convention costs, the cost to life cycle 
key items and routine equipment and systems, and the restoration of 
annual levels reduced in previous fiscal years to meet regular 
Department needs.
    With resources provided to the Department, our officers provide a 
safe environment for the facilities of Capitol Hill. For the U.S. 
Capitol Building alone, we provided a secure and open environment for 
well over 1.5 million square feet, over 600 rooms, approximately 850 
doorways, and miles of corridors; which speaks to the vast magnitude of 
our mission and how our ability to remain agile and prepared to respond 
is key to the accomplishment of our mission. In fiscal year 2014, the 
Department performed over 9.6 million screenings of people entering 
congressional buildings (including over 1.4 million visitors to the 
Capitol Visitor Center). Outside the buildings we kept the Capitol 
grounds safe by conducting more than 125,000 K-9 vehicle sweeps and 
nearly 27,000 offsite vehicle inspections.
    For the fifth year in a row, the Department has implemented uniform 
procedures to effectively measure and justify U.S. Capitol Police 
planning, program, and resource requirements through a comprehensive, 
standardized, and repeatable management process, which we call the 
``Force Development Business Process.'' It provides for a transparent 
decisionmaking process, including reviews and approvals by an 
Investment Review Board made up of key agency management, and provides 
a structure that is results-driven and based on meeting operational 
needs. In addition, in order to ensure the accuracy of our budget 
request, our fiscal year 2016 budget went through multiple layers of 
review and validation, and is traceable to supporting documentation for 
each budget element.
    Further, we continue our work to close audit recommendations and to 
address our material weaknesses from prior audits by working closely 
with our Inspector General and the Government Accountability Office to 
address identified issues and by providing the evidence necessary to 
close findings. In particular, I am pleased to report that the 
Department received a fourth consecutive unqualified ``clean'' opinion 
on our financial statements. Also in fiscal year 2014, we have worked 
closely with the Office of Inspector General to close 29 
recommendations and have completed actions that we believe could lead 
to closure of another eight recommendations. Also, the Department 
successfully closed all findings from outstanding GAO reports and 
closed four complete OIG audits that have been open since 2008. 
Further, we are working on the resolution of a number of other 
recommendations in order to achieve efficiency and effectiveness of our 
administrative programs. The long-term resolution of recommendations 
related to internal controls, business processes and material 
weaknesses remains of the highest importance to our management team.
    I am grateful for your time today. We will continue to work closely 
with you to make sure that we meet the needs of our mission in a 
reasonable and responsible manner. I want to thank the women and men of 
the USCP for their commitment to our mission and their support. I 
appreciate the opportunity to appear before you today and would be glad 
to answer any questions you may have at this time.

    Senator Capito. Thank you. I thank all three of you for 
your testimony, and I join the voice of my ranking member here 
in thanking you for what you do for us every day and the 
general public and really for the country. So I want to make 
sure I get that on the record as well.
    I want to begin with questions for the Secretary of the 
Senate. You have asked for a request to upgrade the Financial 
Management Information System (FMIS). But as I understand it, 
you are going to have 6 years of budget requests to get you 
fully up to speed. In my view, 6 years is a lifetime in any 
kind of computer programming or software, and my concern is--
and I am wondering if you have the same concern--is it possible 
by the time you get to full implementation, you are behind the 
curve again? What would your comments be on that?
    Ms. Adams. That is a good question. I think anytime a 6-
year project--certainly that does probably raise some eyebrows. 
But our team, our planners have really done a lot of their 
homework to put this plan into place. And the software that we 
will procure will be software that will still work when it is 
fully modernized. They will be purchasing the stuff that is in 
production. While we are moving through the phases, if they 
know that the third phase has gotten new software that we will 
need, they will make sure that it is the most current form that 
is available. And we will all be supported when we are done. 
But I understand. Six years does sound like a long time.
    The benefit of doing it over 6 years, though, is truly--I 
want to make sure all the stakeholders that use FMIS have a 
system that works in the end that truly works for them. And by 
jamming it in in a shorter period of time, my concern is that 
we will not meet all the needs of the Senate in that amount of 
time. The shortest amount of time that we could do this in 
would be 3 years, and that would really be pushing it. We would 
likely need to add some additional full-time equivalents 
(FTE's) to that in order to support it, and there would also be 
some stuff for them on the Sergeant at Arms side in terms of 
their support. Making sure that we have staff that is up to 
speed and that they can support it when it is done, the 6 years 
gives us the time to get staff up to speed so that when it is 
done, we are not having to use contractor support and we have 
more internal support.
    Senator Capito. So basically the 6-year timeline, if you 
were to squeeze it down--that was going to be my next question. 
Can you get it done in 3 years? Can you get it done in 1 year? 
Basically you are telling me that is not the advice that you 
are----
    Ms. Adams. It is not the advice that our folks that have 
done all the planning--they have looked at other Federal 
agencies that have systems to see how long do these sort of 
things take to implement. And, you know, 3 years is really 
pushing it. That would be the minimum number that we would be 
able to.
    Senator Capito. Well, maybe this time next year, when you 
have implemented the first year, we can return to this question 
because I think it is something that we want to make sure we 
are modernizing to the point where it actually is modern at the 
time that it concludes.
    Ms. Adams. I agree. I agree.
    Senator Capito. I would like to ask the Sergeant at Arms. 
You mentioned your priorities, safety and security, cyber 
health, customer relations, preparedness and partnerships. You 
know, just a general question about number one on the safety 
and security issue. Obviously, there are threats everywhere. 
What kind of coordination are you doing in terms of being able 
to assess what a terrorist threat to the Capitol is? I mean, I 
am probably the only one of the five of us--well, maybe Julie 
was here. I know you were in DC at the time on September the 
11th. And I understand you were in New York City. You know, as 
time has gone on here on the Capitol complex, I know we still 
have the heightened awareness of that. But are the threats 
more, less, or without being too specific, could you give us an 
idea of where you see these threats presently on the Capitol 
complex itself?
    Mr. Larkin. Absolutely, Chairman.
    The threat picture right now is very dynamic. And again, I 
think that you can look at the information that we are getting 
from the media and also from companion testimony from other 
Government leaders up here on the Hill recently. We are in an 
environment where we have a full spectrum of threat that not 
only encompasses what we have seen overseas associated with al 
Qaeda, ISIL, ISIS, and others, but then we are seeing more and 
more here on the domestic front where we are encountering self-
radicalized or self-motivated individuals. And some of these 
individuals are in communications with folks outside our 
domestic environment, again taking direction, somewhat 
supported either financially or with information resources. And 
then there are others that are fully independent, and they are 
the ones that remain the toughest target in the sense of 
identifying them in advance of some type of act that they would 
like to perform.
    The only way that we are going to be able to stay ahead of 
this is, as you alluded to, close communications and 
coordination with our Federal partners and in some cases with 
some of our trusted allies who, again, are dealing with much of 
the same challenge, both with their assets overseas and their 
own homelands. We are in daily contact with the intelligence 
community. We are in daily contact, again, both with the House 
Sergeant at Arms Office and the U.S. Capitol Police, with our 
law enforcement partners, the FBI, Secret Service, Park Police, 
the folks that are generic to the Capitol campus but we are 
also in touch with law enforcement agencies that have a nexus 
to each of the member offices in their respective States of 
jurisdiction.
    And again, as we see telltales or indicators that something 
is not right, we are very aggressive in pursuing and getting to 
the bottom of exactly what is taking place. And together with 
that is being able to get effective notifications out to 
members and staffs and so forth so that they have a level of 
awareness that we are working something, that we have got it 
contained, or its in motion and that they need to, along with 
our assets, increase their vigilance.
    Senator Capito. Thank you and thank you for that. I think 
the communication is much improved over what it has been, and I 
think that is something that we need to keep on top of.

                       U.S. CAPITOL POLICE MORALE

    To the Chief, we talked just briefly as I came in. We 
talked about the situation last night in Ferguson with two 
police officers being shot, and I do not know what the details 
of that are now but it certainly is a tragedy for everybody.
    And I know that there have been some morale questions for 
the Capitol Police. Certainly the greater question of law 
enforcement in general--you have been in this field for 
decades. We are having sort of a national discussion. Are you 
finding within the Capitol Police these same kind of pushes and 
pulls between the general public and law enforcement? What is 
your perspective on that? And how do you perceive the morale of 
the Capitol Police right now?
    Chief Dine. Well, to the first part, the pushes and pulls I 
think that law enforcement face across the country sort of 
highlight the uniqueness of the U.S. Capitol Police. We are 
essentially an amalgamation of multiple law enforcement 
agencies rolled into one. A lot is asked of our agency, and it 
highlights the importance that we maintain the nimbleness and 
ability to confront all types of threats and issues as we 
provide safety and security throughout the Capitol complex. 
That is very critical. We are kind of a combination of an urban 
department. We do investigations. We do a lot of intelligence 
work, and we have continued to raise the bar as it relates to 
intelligence. The challenge is pushing that type of information 
out to our entire agency so that we can continue to provide 
safety and security not only here but to member offices, deal 
with threats, and investigations. Obviously our checkpoints and 
our doors are critical, which is why the training is so 
important to our agency, and we appreciate the support you 
provided us.
    One of the unique challenges that we face is training. 
Unlike more traditional agencies, when we provide training to 
our officers, we have to take officers offline and then use 
overtime to fill those back positions. More traditional 
departments can significantly change the level of staffing out 
in the street from day-to-day and tour-to-tour. Part of that 
points then to my mission of making sure that our agency from 
top to bottom is cohesive, that we have a cohesive management 
team that understands the mission that we face and those 
nuances and the uniqueness of who we are and what we do. I 
think that relates often to the morale piece. It is imperative 
that we understand that we are one police organization that is 
more important than any one individual, that we understand what 
our roles and responsibilities are, and the more and better 
people understand that, which is my role as Chief of Police to 
make sure the management team and all of our leaders and 
managers and officials within the agency are a cohesive team. 
And in that way, we can best address the morale.
    Senator Capito. Thank you.

                     PERCENTAGE OF FEMALE OFFICERS

    Just a real quick question. Then I will ask my ranking 
member. I want to get on the record, Chief--I asked you when I 
was over at your headquarters what percent of your force is 
female. Could you put that on the record for us?
    Chief Dine. Yes, ma'am. We are proud of the fact that it is 
about 18 percent.
    Senator Capito. I think you are doing better than the 
Senate.
    Senator Schatz.

        POTENTIAL IMPACT OF SEQUESTER LEVELS IN FISCAL YEAR 2016

    Senator Schatz. Thank you, Madam Chair.
    The Budget Control Act imposes spending caps that were 
designed to limit discretionary spending. And I support and 
many others support adjusting those caps to a more responsible 
level, which would be closer in line with the request your 
agencies have made to the subcommittee.
    The cap in place for fiscal year 2016 would provide a .2 
percent increase over the 2015 level. Yet, today we are 
examining an increase of almost 9 percent for Capitol Police, 
4.4 percent for the Sergeant at Arms, and 9.6 percent for the 
Secretary of the Senate. And I should say I find these 
increases to be totally reasonable, but not fundable unless we 
deal with the sequester.
    Chief Dine, the adjustments in the Budget Control Act (BCA) 
caps in fiscal year 2014 and 2015 allowed your force to restore 
the number of sworn officers protecting the campus to pre-
sequester levels and allowed the force to reinstate training 
that had been canceled under sequester. And I understand you 
were able to put all of the officers through active shooter 
training. I am worried that these activities will be difficult, 
if not impossible, to afford if we go back to the sequester. 
Your budget request includes $17.4 million just to maintain the 
current number of officers, plus an additional $13.5 million 
for critical back-of-the-house support such as replacing 35 
computer servers that are past their warranty.
    So, Chief, if the budget for the Capitol Police was limited 
to the current sequester levels, would you have to reduce the 
number of officers on patrol, and what would happen to 
training?
    Chief Dine. Yes, sir. Thank you. I think there are several 
key points.
    Our fiscal year 2016 budget request includes approximately 
$5 million of a one-time costs for the protection we provide 
for the presidential conventions that was not part of the 
fiscal year 2015 budget. This is a longstanding function in 
which we engage every 4 years and does require additional funds 
primarily for overtime and travel costs. Nearly $2 million in 
overtime and $3 million in travel costs go to fund these 
activities.
    Secondly, the enacted level of the fiscal year 2015 budget 
for salaries is less than the amount needed to fund the fiscal 
year 2016 to fully fund, as you noted, the 1,775 sworn and 370 
civilians' overtime and training costs. There are increases in 
salaries due to normal salary increases for the existing staff, 
annualization of the 2015 living increase, increases in benefit 
costs, and also the additional day of pay due to leap year in 
fiscal year 2016 that are not matched over fiscal year 2015.
    If the funding levels for fiscal year 2016 are to be frozen 
at the fiscal year 2015 levels, it will require us to absorb 
the above increases in salaries and the one-time presidential 
convention costs. We projected that will force us to reduce our 
staff by approximately 250 people, which is significant. In 
addition, we would have to cancel necessary training for the 
planned officers and, as we discussed, training for our 
department is critical in all phases.
    This type of reduction in staff will force us to reduce--
curtail coverage in critical areas impacting the normal 
functioning of the Capitol complex such as reduction or 
elimination of mission support to minimal levels, reduce 
protection and coverage of the congressional leadership, reduce 
threat validation significantly, reduce post coverage, and an 
inability to potentially provide coverage for certain response 
capability and services. It may also affect our hazardous 
material and hazardous device responses.
    Obviously, what will be required and what we continually do 
is to work with our stakeholders to make sure the required 
reductions take place without creating significant security 
issues. These reductions will result in impacts to access and 
convenience areas throughout the complex, however.
    Senator Schatz. But there would be fewer officers on 
patrol, less money for training, if any money for training.
    Chief Dine. Yes, sir.
    Senator Schatz. And as a result, fewer doors and less 
training. That is just as a starting point.
    Chief Dine. Yes, sir.
    Senator Schatz. Thank you, Chief.
    Mr. Sergeant at Arms, assuming flat funding for 2016, would 
the Sergeant at Arms Office have to delay the requested 
upgrades for the IT systems, or would you be able to make 
adjustments in other places?
    Mr. Larkin. Senator, first of all, I think you have to look 
at your question in two prongs, at least from the Sergeant at 
Arms. One is the personnel and the other is non-personnel 
expense.
    With regard to personnel, we could probably absorb that 
strain internally, and part of that is due to the fact that we 
have an ongoing effort right now to look at our job tasks and 
our personnel that are matched against those job tasks to see 
if they are still relevant. And in some cases, we are re-
engineering and repurposing our personnel as we see evolutions 
in technology where the technology can take up for some of the 
FTE work, applying that, and balancing that, and it is an 
ongoing process.
    The other aspect of the personnel is that we are converting 
some of our contractor positions over to Government positions, 
which then yield savings to our bottom line.
    Now, on the equipment side--and they are both linked--is 
that we would have to prioritize our equipment investments and 
certainly our refresh and either extending our refresh out, 
which is sort of the situation that we were in here about 2 
months ago where because decisions were previously made to 
extend the refresh of equipment, we found ourselves challenged 
one night, as you are well aware. And we were able to quickly 
recover, but yet it certainly brought to everyone's--to the 
forefront what can happen when a critical component fails 
unexpectedly.
    Now, what I feel will suffer is--and again, this is about 
prioritization--extending those refreshes, potentially pushing 
other equipment change-out or software change-outs further out 
to other budget years. What I think would suffer would be 
innovation. And again, I go back to some of the technical 
advances that we see allow us to create a level of increase in 
efficiencies and savings that I think that would also suffer. 
So we would wind up in that do loop of trying to keep our lips 
above water and support the Senate effectively.
    Senator Schatz. Thank you.
    And, Ms. Adams, I assume under the BCA levels, you would 
have to delay the upgrade of your financial management system?
    Ms. Adams. Yes, Senator, we would.
    Senator Schatz. Thank you very much.

                   PREPARATION FOR POPE FRANCIS VISIT

    I have a quick question about the preparation for the visit 
of Pope Francis this September, and if you could just briefly 
talk, each of you, about how you are preparing for it just 
operationally. But the other question I have is do you bake in 
an assumption about visiting dignitaries, or is something on 
the order of magnitude of Pope Francis visiting--you are not 
able to kind of regularly account for it in your annual 
budgeting process? Is this going to be a hit to your budget, or 
can you absorb it? That is one question.
    The other question is what you are doing operationally to 
make sure it is smooth and safe. Maybe starting with the Chief.
    Chief Dine. Yes, sir, thank you.
    Our Office of Administration estimates the costs for these 
types of events, based on the requirements that are provided by 
our operations, and those costs and the planning around those 
costs is based on a risk/threat, available intelligence, and 
appropriate response and duration of those types of events 
obviously.
    Normally we project a certain number of hours to be used 
for these types of unscheduled events. Usually it is about 
20,000 hours. But that is based on the events that we know of, 
such as Congressional Delegation trips (CODEL's), known 
protests such as the annual national grass-roots organization 
of disability rights activists (ADAPT) type protests and other 
special events that normally occur during the year that cannot 
be projected for any type of pay period. The demonstrations and 
anticipated activity resulting--as you mentioned earlier, 
surrounding things like Ferguson, the Concert of Valor which 
took place right next to us this past summer, the Israeli prime 
minister visit, and the Pope visit later this year--those were 
not anticipated, and those are in excess of the 20,000 hours 
that we currently budget. It is a combination of fluidity in 
terms of us budgeting for those types of events which we know 
about and can foresee and project and those that are not.
    For example, the Ferguson west front event required the 
deployment of our civil disturbance unit, utilizing 
approximately 2,500 hours of overtime and associated 
enhancements and then we had to continue those. The papal visit 
will be significant in planning and scope, similar to an 
inauguration or perhaps even surpassing that. We anticipate 
very, very, large crowds all during that day, much earlier than 
prior to even before the Pope coming up to the Capitol, lining 
all the streets. It is a huge and very significant event.
    Now, we do a great job. Our officers do an outstanding job 
working with the law enforcement community both here in the 
region and across the country. We work in the field with them 
seamlessly, and as you know--you have been to our command 
center. During those major events, if one came to our command 
center, you would see all of our partner agencies there working 
with us. But that is a huge event that goes above and beyond 
our budget.
    Senator Schatz. Thank you.
    Mr. Larkin.
    Mr. Larkin. Thank you, Senator.
    For the events that we know that occur each year on the 
calendar, again, they are easy to forecast and provide a 
projection. It is for these events that, again, occur out of 
cycle from our budget cycle where, again, we can take a hit 
financially on the amount of resources that we have to apply to 
effect support for those visits, the papal visit being a good 
example.
    Right now, it appears that we are in a good place. However, 
we do not know what we do not know. They are actively planning. 
The State Department is working with the Vatican and also local 
resources here to really scope what that visit is going to 
entail. The Metropolitan Police Department, a great department, 
is one that we have a great relationship with them. But the 
fact is no one police department in DC can lift the strain of 
this visit alone. So it really requires a significant mutual 
aid effort that not only involves the departments here in the 
District of Columbia but also involve outside resources. And 
all those resources need to be coordinated, need to be 
supported in order to address what we fully expect to be a mass 
of humanity that will show up for this event. I have been 
involved in a number of papal events and have protected a 
number of Popes, and it is unlike any other--the closest 
comparison would be an inaugural. But this will go over and 
above an inaugural.
    In addition, depending on where he goes on the eastern 
seaboard, we could very well be asked to contribute personnel 
to other cities such as Philadelphia and New York just by 
virtue of the fact that our police officers here, our 
departments here are very familiar with these type of events, 
and as his events take place in other cities, there could be a 
mutual aid request to send and deploy forces there in support.
    Senator Schatz. Ms. Adams.
    Ms. Adams. We do not anticipate any new costs for the 
Secretary's Office. Our involvement in events--you know, so far 
I have only participated in a couple of these with the State of 
the Union and the most recent visit by Prime Minister 
Netanyahu. But our Office of Interparliamentary Services will 
work with the Sergeant at Arms Protocol Office, but there 
should not be any new costs that come to our office.
    Senator Schatz. Thank you.
    And we here want to make sure that this is successful and 
seamless and safe. And then on the budgeting side, on the 
appropriations side, maybe we can at least stay in touch to 
see--I know it is going to be a moving target, but I would sure 
hate for the chair to be surprised next year about a shortfall. 
But there is no reason to do anything less than everything that 
is necessary to make sure that everybody, including and 
especially the Pope, is safe.

                       DRONES AND DEFENSE TACTICS

    Chief Dine, I have a question about drones. Last month, 
drones were spotted flying all over Paris, hovering over the 
Eiffel Tower. We know that a hobbiest voluntarily admitted to 
flying over onto White House grounds. The Federal Aviation 
Administration (FAA) has released proposed drones regulations, 
setting some restrictions, but largely allowing private drone 
use. And without getting into a classified conversation or any 
of your operational plans, I would just like you to talk a 
little bit about how you are ensuring that the Capitol Police 
have the latest and best information on drone capabilities and 
potential defense tactics.
    Chief Dine. Yes, sir. Thank you.
    The Capitol Police actually has had an airspace coordinator 
for the past 12 years, and we actively work with other law 
enforcement partners on a variety of issues, including the 
challenges we face regarding the unmanned aerial vehicles, or 
UAVs. In fact, 2 weeks ago, U.S. Capitol Police facilitated a 
meeting with over 20 law enforcement agencies regarding drones, 
and the meeting focused on four key areas: the general issues 
and concerns with these types of UAVs, the current laws that 
each agency follows and would use to prosecute such types of 
events--and we actually had people from the U.S. Attorney's 
Office, local prosecutors at the meeting as well--the types of 
tools for responding to these kinds of challenges, and lastly, 
the development of a common and consistent message to the 
community because that is also important in terms of educating 
our community about these types of vehicles and what would be 
legal and not legal. Of course, we discussed a number of other 
related aspects.
    We do work with all of our law enforcement partners on a 
daily basis in coordination not only regarding UAVs but a 
variety of other airspace issues. We are very plugged into this 
issue because of the fact that we have had an airspace 
coordinator, and you are familiar with some of the capabilities 
we have in our command center. This unique challenge is 
something that we need to stay on top of consistently and be 
plugged in at the highest levels with all of our partner 
agencies to make sure that we have the capability and 
adaptability and nimbleness to respond.
    Obviously, as it relates to the specific tactics and 
approaches, I would be glad to meet with you in a private forum 
to discuss some of the capabilities and things that are being 
looked at more specifically to combat these types of things. We 
are very plugged into the issue and aware of the challenges 
that they bring.

                 PUBLIC ACCESS POLICIES AND PROCEDURES

    Senator Schatz. Chief Dine, I want to ask you about the 
unique mission that the Capitol Police have to contend with, 
arguably different than any other police force, which is the 
foundation of American democracy, access to citizens and staff 
and the press to the Capitol campus. And yet, you have an 
incredible obligation to protect the members and the staff and 
the citizens.
    And I understand almost 10 million people last year came 
through the doors, and these are a lot of different doors. Each 
entry point is unique and traffic volume fluctuates, and some 
are mostly visitors. Some are members. Others are staff and 
advocates. But it is an incredible challenge to balance those 
two things leaning heavily on the safety and the security side, 
but understanding that you still have to move people 
efficiently and that a lot of times this is someone from some 
other State and their only time in their life to really be in 
the midst of American style democracy in this particular 
fashion. So I recognize the challenge that the force has and 
that your officers have.
    How do you ensure what policies and procedures and what 
training do you have in place to make sure that you have alert 
officers at all times throughout their shifts?
    Chief Dine. We do a number of things. We rotate officers 
through their posts. We give them a number of breaks. One of 
the things that we have been doing much more aggressively, as I 
alluded to earlier, was pushing out key pieces of intelligence 
information. It keeps them focused and alert and cognizant of 
the various types of challenges that we face.
    As you mentioned and as I mentioned earlier, we are kind of 
an amalgamation of multiple types of agencies, and we take very 
seriously and are very proud of the fact that we are protectors 
literally of the democratic process, but we are also 
ambassadors. Our role as America's police department is such 
that when people come to the United States Capitol from all 
over the world, we want, when they see our officers who are 
often the first faces that they see when they come here and 
often the last face they see, that they have just encountered 
the best in American policing. That is what we want them to 
believe and feel and see when they see us.
    The alertness of our officers is critical. The various 
types of threats that we face as they are moving people around 
this very open campus, as we know, is quite a challenge, and 
obviously it is imperative that our officers are alert and on 
watch 24 hours a day, 7 days a week. We engage in all those 
types of activities to make sure that they are in that mode.

                           CELL PHONE POLICY

    Senator Schatz. What is your policy on cell phones?
    Chief Dine. We have a policy, obviously, that precludes 
folks from not paying full time and attention to their duties 
while they are on their posts.
    Senator Schatz. Is it a general prohibition on being 
distracted, or is there a specific reference to use of smart 
phones and cell phones?
    Chief Dine. Both, but we do give phones to our officials 
and some officers have phones, but we want them to refrain from 
using them while on post. As you know, we moved forward last 
year, thanks to your support, with our new radio system which 
is working splendidly. We want them to utilize a police radio 
if they need to call for relief or call for a supervisor or 
need to make an emergency phone call or deal with some type of 
thing where they need to go offline. Officers have the 
capability and adaptability to do that through our police 
radio, and then obviously, they can get a break and make a 
phone call. But it is imperative based on the significance of 
our role that they are paying full time and attention.
    Senator Schatz. Thank you very much.
    Thank you, Chairwoman.
    Senator Capito. Thank you.
    I would like to ask a few more questions if the panel will 
bear with me here.
    I would like to talk to the Sergeant at Arms on the IT 
upgrades. You mentioned just briefly--but we did have the 
outage in January where the Senate system--the whole network I 
think--went down. And you mentioned that the $13 million 
increase for this coming year would go a long way to help to 
prevent something like that happening again. Could you speak to 
what happened and what this upgrade would do to prevent 
something like that happening again?
    Mr. Larkin. Yes, Chairman. Essentially we had a significant 
switch failure at our primary computing facility that was due 
for an upgrade during the February recess. However, it failed 
in January. No other explanation other than that.
    Senator Capito. Was that upgrade in the budget for last 
year?
    Mr. Larkin. It had been considered for upgrade a number of 
years ago, but because of some of the budget pressures, a 
decision was made to push out the refresh, which goes back to 
Senator Schatz's question about the effects of squeezing our 
budgetary line.
    The source of the shutdown has been clearly identified. The 
new hardware has been installed and is currently being tested 
and is due for switch-over very shortly. And we expect that as 
far as this type of scenario occurring again, we have mitigated 
it with a high degree of confidence. In the event that we 
have--again, I do not want to say a similar incident, but an 
incident that challenges our systems the way we were challenged 
in January, we will have a seamless switch-over to our 
alternate computing facility without interruption to services.
    Senator Capito. Thank you.
    I am going to kind of wade into something here. Another 
topical question in front of us today is the use of official or 
personal email accounts to conduct business. I guess I am 
unclear as to who sets the policy here for the Senate and what 
policy exists. I mean, I think this is something that we need 
to clarify. Is that something that falls within your domain at 
the Sergeant at Arms?
    Mr. Larkin. Chairman, I will have to get back to you, 
again, with a clear answer on that. Again, obviously, with what 
has occurred recently in the news, it has drawn attention to 
this. There are policies in place. I would like to get back to 
you as to the source of those policies and how well they are 
defined.
    Senator Capito. Okay, because I am speculating, obviously, 
that if you are going to guarantee the security of the networks 
of the Senate.gov, that does call into question where is the 
security of personal emails. It is not an uncommon practice to 
have two accounts. So I would like to follow up on this. I 
think it is a discussion we should have here.

                            HEARING SECURITY

    And one other thing for you is--and you and I have talked 
about this. There was an occurrence in one of the subcommittee 
hearings right after you took the job, where there was a call 
to question as to the security that was provided to the 
Senators and the witnesses that were testifying because of some 
protestors in the room.
    I mean, having been in several meetings where this has 
occurred, many times folks who want to verbally protest or wave 
signs will prepare the panel and the Capitol Police and say 
this is what we plan to do. We want to have our protest. And 
normally you can contain that easily, and then most of them 
will then exit the room or sit quietly for the remainder of the 
committee hearing.
    But in this case, it sounded like it sort of got out of 
hand. The timeliness of the reaction was questionable. I know 
Senator McCain was very upset by what had happened in his 
committee.
    So I guess both of you would probably be appropriate to 
answer this, but I would like to give you as Sergeant at Arms, 
because you and I have talked about this, what kind of 
protocols you are putting into place to try to alleviate that 
situation.
    Mr. Larkin. First of all, Chairman, the McCain incident was 
underwhelming and ineffective response, which drew the 
attention to the fact that we have high profile hearings that 
occur almost daily on this campus. It motivated a look at our 
procedures. It also created an opportunity to get together with 
the new committees and ensure that everybody was in sync with 
the committee processes and how to deal with these scenarios, 
should they occur. The Capitol Police was very much involved in 
that effort, along with the Sergeant at Arms and the 
Secretary's Office, again, to ensure that everybody was 
operating on the same playing field and understood what the 
expectations were as far as conducting a committee hearing or, 
for that matter, conduct that would be inappropriate in a 
member's office by one of these groups that would show up 
unannounced to voice their opinion.
    There was significant focus on not obstructing their free 
speech. However, as you alluded to, we accomplished getting 
with these groups in advance of these hearings clearly 
outlining what was appropriate behavior and what was not 
appropriate behavior and then informing them as to what the 
consequences would be.
    Personally I directed the Capitol Police department as the 
Chairman of the Police Board that anyone that is to be removed 
from a hearing room for inappropriate behavior, whether it 
presented a safety issue or a security issue, would be 
arrested.
    Senator Capito. Is that a new policy?
    Mr. Larkin. That is a policy that had been exercised in the 
past. However, I clarified that policy so that there would be 
no misinterpretation as to when it would be enforced. And we, 
again, got together with the committees, informed them of that.
    Since these new processes have been in place, we have not 
had any problems. We have had incidents, but they have been 
quickly brought under control. Folks who have elected to voice 
their opinion about various subjects have been allowed to do 
so, but then when they have been warned, they either comply or 
they are removed from the hearing room.
    Senator Capito. Chief Dine, did you want to make a comment 
on that?
    Chief Dine. I can echo those remarks from the Sergeant at 
Arms. Our response that day was not acceptable and not up to 
our high standards. It did allow us to work with the Sergeant 
at Arms and his staff and all the committees to highlight 
further the communication between us, the Sergeant at Arms 
staff, and the committees so we know ahead of time the 
expectations of all parties.
    We generally do an outstanding job at liaisoning with these 
groups. Almost on a daily basis we protect the First Amendment 
and the people's right to be heard up here. As an agency we 
take that very, very seriously and, frankly, are very proud of 
the manner in which we do that. That being said, the work of 
the Congress must go on uninterrupted, and when we need to take 
action, we need to do that.
    It allowed us to formulate some better training, working 
with our General Counsel's office who provides us outstanding 
assistance. We actually are providing scenario-based training 
so our officers and officials are extremely confident when they 
are in these types of situations in terms of what actions to 
take and what different laws apply. As Mr. Larkin said, they do 
that on a daily basis very well generally. It allowed us to 
strengthen the communication, the training, and the clarity 
about which we want the officers to act.
    Senator Capito. Well, thank you.

                             USCP OVERTIME

    I am going to ask another budgetary question here. I 
understand that striking the best balance between the cost of 
on-board officers and the cost of overtime has been a 
persistent struggle for the Capitol Police. The projected 
overtime costs for fiscal year 2016 are $30.9 million, and the 
budget request maintains, as we have said, the current officer 
strength at 1,775.
    So I am curious to know from the leadership's perspective, 
both Chief Dine and Sergeant at Arms as chairman of the Capitol 
Police Board, where things stand today. Is this the best we can 
do? Is it possible to drive down overtime costs, or does 
maintaining the 1,775 officers mean that we will always have a 
$30 million cost of overtime? Chief Dine?
    Chief Dine. Yes, ma'am. Thank you. I think there are a 
couple key points that relate to this question.
    The first one being the mission requirements of the 
department significantly exceed the staffing levels we have. 
There will always be the necessity of overtime.
    Senator Capito. Could I ask just a quick question here? 
Because you and I talked about this. Your staffing level is at 
1,775. You are authorized for more officers. Correct? Or is 
that your statutory limit?
    Chief Dine. We are authorized 1,800 sworn positions.
    Senator Capito. 1,800?
    Chief Dine. Yes, ma'am.
    Senator Capito. Okay. Continue. Sorry.
    Chief Dine. What is asked of the agency has historically 
exceeded our ability to do that without overtime. Our 
requirements just exceed the staffing levels we have. There 
always will be some use of overtime in certain situations like 
this, and often it is more practical than having excess 
capacity. It frankly makes us more nimble in a lot of ways. 
However, there are additional fiscal year 2016 overtime costs 
related to the conventions.
    The other key point that I mentioned earlier was part of 
our overtime cost relates to training needs because we have to 
backfill people when we take them off line for training, which 
is a little bit different than most other departments would 
operate.
    We obviously work continually with the Capitol Police Board 
to determine that balance, to try to strike that correct 
balance between overtime and what we request in a given fiscal 
year. If we were to ask for more officers ever in the future, 
it would still not offset overtime for that year because of the 
time it takes to get officers on board. I mean, that is sort of 
a hypothetical answer. It takes about a year to get full 
utility from officers even when we hire them. I have obviously 
directed our COO and CAO to continually monitor overtime costs 
and strike that best balance between where we are fiscally with 
the use of overtime and the number of people we have on board.
    Right now, we are not at 1,775 either. We are always 
striving to get to that number.
    Senator Capito. Where are you right now?
    Chief Dine. Probably around 1,730 or----
    Senator Capito. Is that built into your budget that you are 
50 under?
    Chief Dine. Yes, ma'am. The budget is built to get to 
1,775.
    So it is a constant, I guess, striking that best balance 
between staffing and overtime. And as I mentioned, the overtime 
amount for what we are requesting is almost $2 million for the 
conventions and training is about $1.5 million.
    Senator Capito. Sergeant at Arms, do you have a comment on 
your overview? And I am curious to know, do you have overtime 
in your department? Do you pay overtime on your budget?
    Mr. Larkin. There is some overtime components, but it is 
for particular employees that are working in like our parking 
areas and some of the other, what I would say, ground support 
activities.
    Senator Capito. So what comment would you make in terms of 
the $30 million overtime at the Capitol Police?
    Mr. Larkin. Well, first of all, as chairman of the Police 
Board, it is incumbent upon me and the House Sergeant at Arms 
and the Architect who make up the Police Board to provide 
effective oversight on this overtime issue. Fortunately, my 
deputy with his extensive appropriations background has been 
invaluable in the examination of the police budget and the 
overtime factor.
    I think this is going to be an ongoing challenge as we try 
to adjust the force to the threat conditions that challenge the 
Capitol and also for the no-notice or those activities that are 
not planned for or budgeted for in advance.
    I will say, Chairman, that one of the things that continues 
to haunt the force and our staffing is the discussion about 
opening up doors. That does not come without a cost in human 
resources and a financial cost, let alone a security challenge 
that it presents to our armor, so to speak.
    Senator Capito. One of my colleagues just hit me the other 
day. They ought to reopen that door, the one down at the----
    Mr. Larkin. Well, I can understand. You know, security is a 
balance between what is effective against a threat, you know, 
applying some common sense and reality as to how we can 
effectively defend against a threat. And I am not talking about 
goal line defense. I am talking about getting out ahead of the 
threat, getting to it early so that we mitigate, minimize any 
destruction. But you got that dynamic tension between that and 
inconvenience. And there is also a factor of perception. In 
other words, does your perception of security and a secure 
environment match the functional security against that threat? 
And obviously, if you are close to an incident such as 9/11, 
then you have a high expectation for security. You kind of 
trade off a lot of the inconvenience that comes with security. 
The more you move away from that date, then you see that 
pressure. But you have to accept that you also potentially are 
putting yourselves more into a vulnerable position.
    Senator Capito. Right. Thank you.
    Senator.
    Senator Schatz. Thank you.
    Senator Capito. Well, I think I have no further questions. 
And this concludes the Legislative Branch Appropriations 
Subcommittee hearing regarding fiscal year 2016. I want to 
thank the Secretary of the Senate, the Sergeant at Arms, and 
the Chief of the Capitol Police. Thank you each for your 
testimony and your frankness in your answering questions.

                     ADDITIONAL COMMITTEE QUESTIONS

    The hearing record will remain open for 7 days, allowing 
members to submit statements and/or questions for the record 
which should be sent to the subcommittee by close of business 
on Thursday, March 19th, 2015.
    [The following questions were not asked at the hearing, but 
were submitted to the agencies for response, subsequent to the 
hearing:]
              Questions Submitted to Hon. Frank J. Larkin
          Questions Submitted by Senator Shelley Moore Capito
    Question. Does the SAA currently utilize, or plan to implement, a 
cloud computing based information technology infrastructure to operate 
and deliver programs to the public?
    Answer. The SAA is not currently utilizing a specific cloud 
computing based IT infrastructure, however, the Senate is already 
utilizing multiple separate cloud services primarily focused on public 
access to information. We are taking advantage of cloud services where 
they make the most sense for our environment, including: Committee 
Video Streaming; Senate.Gov Website Serving; Web development tools/code 
repository, Application Platform as a Service, Document repository, 
Document Sharing; Office File Storage, Synchronization, & 
Collaboration; Social Media; Senate Floor Video Streaming; Live Video 
Streaming; Video Streaming; Social Media Archiving; Geographic 
Information Services.
    Cloud Computing is a very general term that encompasses a large 
number of service types that are frequently very complex. The SAA is 
continually researching and evaluating these services and taking 
advantage of them whenever the benefits to the Senate and/or the public 
are clear and measureable. The SAA fully expects to be utilizing more 
and more cloud services as we move forward.
    Question. Are there particular IT applications like e-mail, 
disaster recovery, analytics, or other programs that SAA would consider 
moving to cloud computing?
    Answer. The SAA has an ongoing Cloud Computing Research and 
Evaluation initiative with the goal of making recommendations regarding 
cloud computing strategies for the Senate. The scope of this initiative 
includes currently available public and private cloud services and will 
evaluate all IT services provided by the SAA with respect to them. 
Nothing is off the table from an IT perspective, however, there are 
many other considerations such as data custody, data security, cost, 
reliability, and performance, just to name a few.
    Question. With today's mobile workforce, how does SAA provide 
availability, while ensuring data governance and security?
    Answer. The SAA provides Mobile Device Management technologies and 
on-campus wireless network access to offices, which we use to apply 
fundamental security controls. Additional security controls are under 
the purview of the office system administrator. Although the SAA does 
not have authority to control or view the data transmitted, stored, or 
processed on these devices, we nonetheless offer training and guidance 
to offices on how they can best secure their information.
    Question. What are SAA's plans to leverage technologies like data 
or video analytics, to provide more proactive security measures on 
Capitol Hill?
    Answer. The SAA works with the U.S. Capitol Police and our Federal 
law enforcement partners to research and examine various forms of new 
technology that show potential for use as security multipliers on 
Capitol Hill and the member State offices. These forms include data or 
video analytics as well as other technical security methods. The SAA 
will continue to consider new technology, their associated deployment 
capabilities and costs, as they relate to mitigating current/relevant 
threats and risks.
                                 ______
                                 
                Questions Submitted to Hon. Kim C. Dine
          Questions Submitted by Senator Shelley Moore Capito
                            expenses account
    Question. The requested increase includes $1.4 million for 
Government support services from the National Finance Center and the 
creation of an in-house capability for applicant testing and background 
investigations. It appears as though you are proposing to contract out 
for something that could be handled within the Department's Office of 
Human Resources, while at the same time you are proposing to create an 
in-house capability that would make more sense to contract out. Please 
explain why the Capitol Police needs to purchase support services from 
the National Finance Center and create an in-house capability for 
background investigations.
    Answer. The $1.4 million budget request is intended to upgrade 
current HR processing functions with the National Finance Center (NFC) 
and the expansion of an in-house capability to conduct employee 
background investigations that were previously conducted by 
contractors.
    When the sequester took effect, the Department discontinued using 
an automated staffing tool with a performance management component that 
was very costly. The Department currently uses mainframe technology 
which is antiquated and inefficient to process personnel actions with 
NFC, which is our payroll system of record. This request will fund a 
one-time cost to upgrade to a new platform with the National Finance 
Center using technology that automates personnel action processing, 
managers self-service, position management and offers an add-on 
component called ePerformance. ePerformance is a self-service 
performance evaluation application for managers, employees and human 
resources administrators. This new platform also offers capability to 
interface with USAStaffing which is the Department's cost saving 
automated staffing tool that supports paperless onboarding to provide 
end to end processing throughout an employee's career lifecycle.
    Regarding the expansion of the Department's background 
investigation capability, recent current events had generated 
significant concerns surrounding the accountability and security of PII 
information and the rising costs of cases being investigated through 
contracted support. Due to such risk, we already are performing more 
in-house, and this funding will allow us to fully fund and stabilize 
that effort. Bringing the investigations in-house has minimized the 
risk of security breaches on Capitol Hill and has allowed for a more 
thorough investigation into each candidate to include subject 
interviews, and to interview key individuals in an applicant's sphere 
of contacts to insure the agency hires the right people who possess the 
qualities, values and character outlined in the Capitol Police Board's 
hiring standards. The Department will no longer rely completely on 
external support to conduct field investigations but will instead 
perform more of the investigative work and provide controlled oversight 
of personnel security. This initiative includes merger of the Badging 
and Credentials and Background Investigations Sections to ensure the 
integrity of PII, quality, timeliness and eventual cost effectiveness 
of investigations through internal continuity. This effort also 
improves the alignment of business processes and expertise with well-
defined roles and responsibilities to perform this critical work for 
the Department. The proposed expansion is designed to eliminate 
vulnerabilities and instill confidence in our stakeholders.
    Question. There are a multitude of requested increases throughout 
the general expenses budget that pertain to training. Will this funding 
level be a new baseline for training needs in future fiscal years?
    Answer. This is another area that has suffered due to the budgetary 
constraints of the last several years. Our increase for training is to 
restore us to training levels throughout the Department that existed 
about 5 years ago.
    There is training that occurs every year. The training of our new 
recruits is our most significant training effort and our request each 
year is based on the number of recruits we project to hire. This 
request is based on ensuring that we maintain our current funded 
staffing levels of 1,775 sworn officers. However, the on-going training 
of our sworn officers is the next most significant training effort. 
Training for our civilian personnel is also critical. This involves 
non-personnel costs and personnel costs, as we need to relieve the 
officers from their ongoing duties to take the training and that 
backfill costs results in projected overtime for the Department. The 
non-personnel costs involved in officer training is fairly static each 
year.
    Many of the increases in our request this year is for individual 
training for officers, officials and civilians, which is reflected in 
various places in our budget as it affects nearly every bureau and 
office, not just a targeted group within the Department. In tight 
fiscal situations this is the training that must be deferred first, as 
the previous two trainings have the highest priority. But we are asking 
to restore training for only the highest needs of the Department and 
are incurring the biggest increases in our most technological entities. 
The technical training, particular in security services, IT and cyber, 
are areas we want to keep as up to date as possible. We do see these 
increases as baseline increases and do not foresee significant 
increases after this.
    Question. The request includes $2.7 million for travel, rental of 
telecommunications equipment, and other purchases associated with the 
Republican and Democratic Presidential Conventions scheduled for the 
summer of 2016. Is this funding request based on actual expenditures 
from the Presidential Conventions in 2012? Knowing that those 
conventions are well covered by the Secret Service, the FBI and other 
law enforcement agencies, would it be possible for the Capitol Police 
to scale back its presence if the full amount of funding requested was 
not available?
    Answer. The funding request is based on actual expenditures with 
normal cost increases. There is no new functionality we plan to 
implement that was not performed at prior conventions. The United 
States Capitol Police has the primary responsibility for the protection 
of Members of Congress, Officers of Congress and immediate family 
members of Members and Officers throughout the entire United States, 
DC, Territories and Possessions. This, coupled with the scope of 
members attending this event and criticality of ensuring both the 
Continuation of Government and Continuation of Legislative Operations, 
makes the Democratic and Republican Conventions a unique challenge for 
the United States Capitol Police.
    At all events, but particularly events of this magnitude, the 
United States Capitol Police works collaboratively with all of our 
partner agencies in a broad array of general law enforcement functions 
to include, but not limited to, intelligence gathering, dignitary 
protection, law enforcement actions, and other broad measures of 
prevention and response capabilities. However, the Capitol Police 
focuses our resources to ensure that the Congressional Leadership and 
other members of Congress are safe and can participate in the 
convention process without fear of harm. This includes, amongst other 
functions:
  --Securing hotels and spaces for their use in much the same manner as 
        we secure buildings and spaces on the U.S. Capitol Grounds. 
        This is often daunting as often multiple hotels are used in the 
        Convention Cities for members;
  --Participating in a multi-agency response team to ensure our law 
        enforcement experts are available for action and analysis;
  --Analyzing intelligence information for a variety of sources to 
        anticipate and mitigate negative consequence events before they 
        occur; and most critical,
  --Implementing emergency action plans to include shelter-in-place, 
        internal relocation and full evacuation plans to ensure the 
        safety of members, the continuation of Government and the 
        continuity of legislative operations.
    The U.S. Capitol Police, at the direction of the Capitol Police 
Board and the authority of U.S. Code focuses on the congressional 
contingent and their safety. Our resources, which are technical, 
mechanical and human, are concentrated to the mission of the Agency. As 
such, it is not recommended that our funding is reduced. However, the 
U.S Capitol Police will work with our partner agencies, and under the 
direction of the Capitol Police Board will strive to reduce operational 
expenses at every opportunity.
                                 ______
                                 
              Questions Submitted by Senator Brian Schatz
    Question. What is the USCP policy regarding the use of personal 
cell phones, personal smart phones, or other personal electronic 
devices while on duty?
    Answer. The Department policy is that while personal cell phones 
may be carried on their person; officers can only use them in case of 
emergency. The Department does not tolerate neglect of duty by officers 
failing to pay full time and attention to their duties.
    The actual policy on attention to duty reads as follows:

    Directive 2053.013, Rules of Conduct: Rule B10

        Rule B10: Neglect of Duty

        Employees will devote their full time and attention to the 
        performance of their duties at all times while on duty.

    The applicable policy on carrying a cell phone on their person is 
found in Directive 1701.001, Uniforms and Equipment, Operational 
Directive UNF 1.1, Uniforms, Equipment and Personal Grooming:

        Personal Pagers/Phones/Communication Devices

        1.  When worn, personal pagers must be black or dark in color 
        to blend in with the web gear.
        2.  Personal cellular type phones that serve as pagers must be 
        permitted to the extent that they are used as pagers. These 
        phones must be black or dark in color to blend with the web 
        gear.
        3.  Employees are permitted to carry personal cellular phones, 
        that are black or another color but fully encased in a black 
        cover. Employees must not use personal cellular phones while on 
        duty, except in an emergency.

    Question. What is the discipline process and penalty for violations 
of this policy?
    Answer. The disciplinary process for rank and file officers is 
found in the Collective Bargaining Agreement (CBA) agreed to by the 
Department and the Fraternal Order of Police Labor Committee. Penalties 
for these types of violations can range from a written warning to 
termination based on a series of factors required to be considered in 
the CBA when determining disciplinary penalties.
    A typical process for a violation of this type is that once an 
employee is observed or otherwise found to be Neglecting Duty, which is 
defined as failing to devote full time and attention to duty, then 
discipline is initiated in one of two ways depending upon a number of 
factors.

    1.  Command Discipline Report is initiated.

       Command Discipline is lower level discipline that is initiated 
at the Division-level that can result in a written warning up to 3 days 
of forfeiture of accrued annual leave. A document is placed in the 
personnel file for up to 18 months and this can serve as the basis of 
future progressive discipline. The Chief of Police or Designee is the 
final adjudicator for this level of discipline.

    2.  Department-Level Discipline which results in a ``Request for 
Disciplinary Action'' which is a more serious type of disciplinary 
action can occur, typically as part of progressive discipline. The 
result can range from 1 day suspension (at a higher level) through 
termination. Disciplinary actions stemming from this more severe type 
of disciplinary action can be contested to the Assistant Chief of 
designee, or possibly contested to a Disciplinary Review Board, 
depending on the level of the recommended penalty. Ultimately, the 
Chief of Police is the final adjudicator of this type of discipline.

    Officers who have a disciplinary history can receive a much higher 
penalty for a repeated violation or continued various violations, based 
on their record.
    So based on this question, it would be appropriate to advise that 
for a Commander to determine the most appropriate level of discipline 
and assign an appropriate penalty recommendation for an officer who 
improperly uses a cell phone on duty, a Department manager may issue a 
penalty that can vary based on the required factors for consideration 
found in the CBA: (1) nature and seriousness of the violation, (2) the 
employee's record, (3) comparative penalties (within the last 2 years) 
and (4) any mitigating factors.
    Suffice it to say, there is an established process for 
accountability. Disciplinary actions are based on well-founded 
observations or evidence stemming from field observation or reports of 
investigation. These matters are reviewed at several managerial levels 
of management. Employees are fully aware of the charges made against 
them and they are permitted to be represented by their Union Stewards. 
There is due process in every case and employees are fully able to 
appeal or grieve disciplinary actions.
    The Department's disciplinary process employs the theory of 
progressive discipline, but there is nothing that stops the Department 
from assigning a penalty that the adjudicator believes to be 
appropriate in any instance in order to hold employees accountable for 
their actions. Responsibility for initiating disciplinary actions stems 
from field commanders who observe violations or from complaints made to 
the Office of Professional Responsibility. The Chief of Police is 
ultimately responsible for the overall discipline system.
    The Department's management approach to controlling use of personal 
cell phones has been to regularly emphasize the need for mission-focus 
to our employees and to provide unclassified intelligence bulletins and 
briefs on current threats, to employ field supervisor enforcement, and 
initiate disciplinary actions when appropriate. The importance of 
attentiveness to duty makes it of paramount importance for supervisors 
to instill an anti-complacency message in our workforce and this 
frequently a topic discussed at roll calls.

                          SUBCOMMITTEE RECESS

    The next hearing of this subcommittee will be held on 
Tuesday at 3 p.m. in Dirksen 138. At that time, we will hear 
testimony from the Library of Congress and the Architect of the 
Capitol regarding fiscal year 2016 budget requests.
    Until then, the subcommittee stands adjourned. Thank you.
    [Whereupon, at 11:01 a.m., Thursday, March 12, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
